<html>
<title> - HUMAN RIGHTS AND DEMOCRACY ASSISTANCE: INCREASING THE EFFECTIVENESS OF U.S. FOREIGN AID</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                 HUMAN RIGHTS AND DEMOCRACY ASSISTANCE:
                    INCREASING THE EFFECTIVENESS OF
                            U.S. FOREIGN AID

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

                           Serial No. 111-102

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

  56-888PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida                          JEFF FORTENBERRY, Nebraska
                                     MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Thomas Carothers, J.D., Vice President for Studies, Carnegie 
  Endowment for International Peace..............................    10
The Honorable Lorne W. Craner, President, International 
  Republican Institute (Former Assistant Secretary of State for 
  Democracy, Human Rights and Labor).............................    19
Ms. Jennifer L. Windsor, Executive Director, Freedom House.......    31
Elisa Massimino, J.D., President and Chief Executive Officer, 
  Human Rights First.............................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Thomas Carothers, J.D.: Prepared statement.......................    13
The Honorable Lorne W. Craner: Prepared statement................    21
Ms. Jennifer L. Windsor: Prepared statement......................    34
Elisa Massimino, J.D.:
  Material for the record........................................    45
  Prepared statement.............................................    56

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    99
The Honorable Jeff Flake, a Representative in Congress from the 
  State of Arizona: Prepared statement...........................   101
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........   105
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   108
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   110
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Material for the record..........   112
Ms. Jennifer L. Windsor: Material for the record.................   114
Elisa Massimino, J.D.: Material for the record...................   121

 
HUMAN RIGHTS AND DEMOCRACY ASSISTANCE: INCREASING THE EFFECTIVENESS OF 
                            U.S. FOREIGN AID

                              ----------                              


                        THURSDAY, JUNE 10, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The hearing will come to order.
    In a moment, I will recognize myself and the ranking member 
for up to 7 minutes each to make opening statements. I will 
then recognize the chair and ranking member of the Subcommittee 
on International Organizations, Human Rights<greek-l>, deg. and 
Oversight for up to 3 minutes for any opening remarks they 
would like to make. All other members will then have the 
opportunity to make 1-minute opening statements if they wish to 
do so; and, without objection, members may also place written 
statements in the record.
    Before we begin the statements, I very enthusiastically 
want to extend a very warm welcome to Ted Deutch, who was 
appointed to the committee as a permanent member last month. 
That is why we have all those seats below him and on either 
side of him. Ted was elected to represent Florida's 19th 
District, the seat held by our former colleague, Bob Wexler, in 
a special election on April 13.
    As a member of the Florida State Senate, he wrote and 
passed legislation that made Florida the first State in the 
Nation to require that public pension funds divest from the 
companies that do business with Iran; and hopefully in 
legislation we will pass soon we will ensure that those kinds 
of State laws will stand up to potential judicial challenges.
    Without objection, Mr. Deutch will be assigned to the 
Subcommittee on the Middle East and South Asia, the 
Subcommittee on Europe, and the Subcommittee on International 
Organizations, Human Rights<greek-l>, deg. and Oversight.
    We are really very pleased to welcome you to the committee. 
We hope you enjoy it as much as we do some of the time, and we 
look forward to working with you. Good to have you.
    Now, on to the hearing.
    This is the latest in a series of hearings on foreign 
assistance reform, one of the committee's highest priorities. 
In past hearings and in other fora, we have examined the proper 
role of the military in carrying out humanitarian and security 
assistance, the efficacy and structure of our development 
programs; and, of course, resource levels appropriate to meet 
our national security, diplomatic, and moral commitments around 
the globe.
    Today, we will focus on our Government's efforts to promote 
human rights and democracy abroad--a foreign policy imperative 
that enjoys strong bipartisan approach--and what we can do to 
make those programs more effective and efficient.
    A core American principle is that all people should enjoy 
freedom of speech, expression and religion, and freedom from 
tyranny, oppression, torture, and discrimination.
    U.S. foreign policy should reflect and promote those core 
values, not only because it implicates fundamental human 
freedoms, but also because it serves U.S. national interests.
    Violent extremism that threatens U.S. national security 
flourishes where democratic governance is weak, justice is 
uncertain, and legal avenues for change are in short supply.
    Efforts to reduce poverty and promote broad-based economic 
growth are more effective and sustainable in a political 
environment in which fundamental freedoms and the rule of law 
are respected, government institutions are broadly 
representative, and corruption is held to a minimum.
    Regrettably, our human rights and democracy assistance 
programs continue to face obstacles that impede their 
effectiveness. With the fragmentation of resources and 
capabilities, gaps in the delivery of certain types of 
assistance and lack of flexibility--be it through Presidential 
initiatives or congressional funding directives--taxpayers 
simply aren't getting an adequate return on their investment.
    While those deficiencies are not unique to human rights and 
democracy, these programs are particularly sensitive and 
deserve special attention. We have seen how ham-handed attempts 
to insert the United States in the political processes of other 
countries runs the risk of failing to achieve meaningful 
reform, and even endangering those who would dare to speak out 
against the policies of their own governments.
    To address these problems, we recently released a 
discussion paper on human rights and democracy assistance--
which is available on our committee Web site--that proposes a 
number of common-sense solutions to those problems. These 
proposed reforms--such as requiring action plans to broaden 
civic participation and prevent human rights abuses, enhancing 
the democracy and governance functions at USAID, modernizing 
and codifying existing human rights statutes, and improving 
training for democracy and human rights officers--will allow us 
to more effectively assist human rights defenders, promote 
participatory forms of government, and strengthen the rule of 
law.
    Some may argue that these proposed reforms go too far, 
while others may say they don't go far enough. Even on those 
points where there is agreement on principle, there are likely 
to be many challenges in operationalizing these ideas. We have 
tried to find the right balance among a variety of competing 
objectives--such as increasing flexibility while maintaining 
consistency, or assisting reformers without compromising their 
independence.
    The purpose of the paper was to generate a robust 
discussion on these important issues, and we welcome any 
comments from the witnesses and--at the appropriate time--other 
stakeholders and members of the public. We will be scheduling 
meetings and roundtables in the near future for that purpose.
    It is worth noting that our democracy assistance does not 
aim to impose a particular form of government on anyone: These 
funds help local partners build representative and accountable 
institutions in their own countries. They take the lead, while 
we provide the training and resources that will enable them to 
be more successful. Our programs include activities often 
carried out by nongovernmental organizations--such as training 
judges and journalists, monitoring elections, and encouraging 
the development of political parties and civil society 
organizations.
    On the human rights front, we have a twofold task: 
Providing support for defenders of internationally-recognized 
human rights, and ensuring that our aid stays out of the hands 
of violators.
    Finally, I would like to note that additional funding is 
not the only key to advancing human rights and democracy 
abroad. Yes, increased resources such as those proposed by 
President Obama, will certainly enhance our ability to protect 
human rights and promote democratic governance. But equally 
important are our efforts to reform the current system of 
providing such funding. In order to be responsible stewards of 
the taxpayers' dollars, we owe it to the American people to 
make the system we have function in a more effective, 
transparent, and responsive manner.
    We are fortunate today to have a distinguished panel of 
witnesses with us, and we are interested in hearing your views 
on how we can more effectively assist those who champion the 
ideals upon which our Nation was founded.
    And now I would like to turn to the ranking member, Ileana 
Ros-Lehtinen of Florida, for her opening remarks.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, as 
always. It is wonderful to see a packed house and to have all 
these young people present today.
    I also welcome our fellow Floridian, Congressman Deutch, to 
our committee. He will be a valuable member.
    Foreign assistance programs as we utilize them today are a 
relatively new concept. Most of our assistance programs today 
did not exist before the Second World War 60 years ago. Some of 
our programs, such as those for the promotion of democracy and 
the protection of human rights, are, in fact, even more recent 
additions to our assistance efforts.
    The relatively new and evolving nature of our democracy 
promotion programs argues strongly for ensuring that we have 
objective means of assessing their performance over the long 
term.
    Today, with an annual budget for democracy promotion that 
is estimated to reach almost $3 billion annually, we must 
review the challenges that have arisen in the course of their 
implementation over the past three or four decades and how best 
to address those in order to increase their efficiency and 
ensure that they advance U.S. interests and our priorities.
    Some of the issues we must look at in order to improve our 
democracy assistance includes: The need for better coordination 
of programs that are administered by a range of U.S. Government 
agencies and nongovernmental organizations; the need for 
objective, quantifiable means of measuring the effectiveness of 
democracy assistance programs; and differing points of views on 
how to best implement such programs, whether by targeting 
political entities, individuals, and events, by embedding them 
in other development programs, or by a combination of 
approaches.
    And, finally, what is the proper role of democracy 
assistance in relation to our diplomacy in support of human 
rights and the expansion of democratic governance?
    With regard to that last and very important point, I am 
concerned that the United States is shying away from strong 
diplomacy in this vital area by failing to condemn and hold 
accountable, or, even worse, by actually engaging directly with 
repressive regimes.
    While the recently released national security strategy 
includes two pages on the promotion of democracy and human 
rights, what matters is what is done, not just what is written. 
If our foreign aid for any objective, including development, is 
to be effective, we must have open and responsive governments 
and institutions so that we can track the use of our funds and 
ensure that they are not diverted into private bank accounts.
    Second, a lack of diplomatic focus on human rights and 
democracy will only embolden dictators and corrupt rulers to 
consolidate their power. We need to ramp up our diplomacy in 
support of democracy, while also targeting our assistance for 
this key challenge. For example, while aggregate funding 
numbers may have increased, I have concerns about whether 
certain time-tested organizations, such as the National 
Endowment for Democracy, are maintaining their proper place in 
our budget priorities. The administration's request for NED for 
Fiscal Year 2011 is nearly a 9 percent cut from Fiscal Year 
2009 levels and an 11 percent cut for the estimated Fiscal Year 
2010 levels.
    Assistance for Iranian civil society and the democratic 
opposition in Iran has to be considered a priority. As the 
Iranian regime has intensified its crackdown on the Iranian 
people, the United States has actually reduced our support for 
democracy and human rights in Iran. While the budget for Fiscal 
Year 2009 requested $65 million for the State Department Iran 
Democracy Fund, the fund has now been scrapped. Its 
replacement, the Near East Regional Democracy Fund, has an 
unclear mission and has received significantly less funding. 
These programming shifts and funding cuts have had a real and 
negative consequence.
    Funding must be moved from organizations whose commitment 
to the principles of democracy is questionable, such as the 
farce that is called the Organization of American States. We 
should shift those funds to organizations that are consistent 
in their efforts on behalf of democracy.
    The United States provides 60 percent of the entire budget 
for the OAS, while that organization pursues an agenda of 
appeasement toward repressive governments in our hemisphere.
    The OAS position on Cuba? In spite of hundreds of political 
prisoners languishing in jail, having committed no crime but 
speaking on behalf of democracy, in spite of there being only 
one political party allowed to operate in Cuba, the Communist 
Party, in spite of no labor unions allowed to operate, and no 
human rights respected, what did the OAS do? It recently passed 
a resolution lifting the 1962 suspension of Cuba from the OAS.
    Following attacks on a prominent synagogue in Venezuela, 
which highlighted the growing anti-Semitic campaign facilitated 
and tolerated by the Chavez regime, the then-U.S. Ambassador to 
the OAS rightfully called for a condemnation. What did the OAS 
do? Nothing. And the Secretary General expressed confidence in 
the Chavez system and its investigation of the incident. What a 
waste of taxpayer dollars.
    Again, our diplomacy on behalf of those who are oppressed 
and our commitment to democratic governance and the 
consolidation of democratic institutions must be strong and it 
must be vigorous. I thank our panel of witnesses this morning, 
and I look forward to hearing their testimony on this important 
issue.
    Thank you as always, Mr. Chairman.
    Chairman Berman. I thank the ranking member for her 
statement.
    I am pleased to yield 3 minutes to the chairman of the 
International Organizations, Human Rights<greek-l>, deg. and 
Oversight Subcommittee, Mr. Carnahan of Missouri.
    Mr. Carnahan. Thank you, Mr. Chairman.
    I want to start by adding my welcome to Ted Deutch, not 
only for being on the full committee but the Middle East 
Subcommittee and the Subcommittee on International 
Organizations. We really look forward to working with you, and 
you will be a great voice in what we do here.
    Chairman Berman, Ranking Member Ros-Lehtinen, thank you for 
holding this hearing regarding human rights and democracy 
assistance. As chairman of the Subcommittee on International 
Organizations, Human Rights<greek-l>, deg. and Oversight, I am 
pleased we are examining this critical component of foreign 
assistance.
    I want to look back to 1948. Our famous Missourian, Harry 
Truman, during his administration helped draft the Universal 
Declaration of Human Rights which states,

        ``Whereas the people of the United Nations have 
        reaffirmed their faith in fundamental human rights and 
        the dignity and worth of the human person and in the 
        equal rights of men and women, have determined to 
        promote social progress and better standards of life 
        and larger freedom.''

    Much has changed since 1948 when the Universal Declaration 
of Human Rights was signed. We have also witnessed great 
changes since 1961 when our Foreign Assistance Act was adopted 
by the Congress. Whether it is YouTube in Venezuela, twitter in 
Iran or Google in China, we have seen traditional democracy and 
human rights assistance struggle to keep pace with the times. 
Foreign assistance needs to be modernized to meet current 
challenges. We need to ensure transparency, accountability of 
our funds; and, at the same time, there needs to be much 
greater efficiency and flexibility.
    We need to make better use of the broad range of all the 
tools in our smart power arsenal and look at some basic 
commonsense measures. We should raise the profile of the Office 
of Democracy and Governance within USAID. We should streamline 
the reporting requirements, reduce the reporting burden on our 
missions abroad, and focus on better leveraging those reports 
to promote fundamental democratic changes within countries.
    Finally, we need to have a serious examination of the 
deficiencies in contract oversight. Way too much taxpayer money 
is being lost to waste, fraud, and abuse, particularly in Iraq 
and Afghanistan.
    The reputation of the U.S. as a beacon of freedom and human 
rights has also suffered in recent years. Under the current 
administration, we have seen efforts to protect basic freedoms 
at home and restore our image overseas. This approach has 
yielded significant benefits to our economic and our security 
interests.
    I thank our leadership for having this hearing again today. 
I look forward to hearing from our distinguished panel on this 
critical and timely issue. I yield back.
    Chairman Berman. The time of the gentleman has expired.
    My colleague from California, the ranking member of the 
Subcommittee on International Organizations, Human 
Rights<greek-l>, deg. and Oversight, Mr. Rohrabacher, 3 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Today, in another part of town, they are marking--there is 
a commemoration of the third anniversary of the Victims of 
Communism Memorial, and I felt that it was more important for 
me to be here continuing that fight rather than just 
memorializing that fight.
    I remember Tom Lantos played such an important part in 
making sure that the Victims of Communism Memorial was actually 
built. I was his partner in that endeavor, and it was a 
struggle simply to get it someplace in Washington, and it is 
over in a corner now. Some people who have authority just 
didn't like the idea of commemorating all those millions of 
people that were victims of communism. They called it being 
belligerent and warlike to make that memorial.
    Let me just note that standing up for freedom is not 
belligerence. It is honorable, and it is a part of our national 
heritage.
    Today, usually when we do not stand up for freedom and we 
do not meet that traditional element of America's heritage, we 
lose.
    Today marks the first anniversary of the uprising in Iran 
after the phony elections that the Mullahs had that kept them 
in power. We all remember that 1 year ago today, the body of 
Neda, a young journalist, lay there in the streets for the 
world to see. What we didn't see, of course, were the other 
bodies that were in the streets that were destroyed and 
murdered by the Mullah regime and the others that have been 
murdered by that regime over the years.
    What is happening in Iran is a failure of the United States 
long ago to make human rights a priority and for us to assist 
in any way that we could those people who would fight for 
democracy and human rights in Iran.
    This leads me to my main point, which is policy. American 
policy is much more important than funding. It is America's 
standing up for its principles, not just how much money we are 
dishing out that makes a difference. Ronald Reagan's very 
aggressive assertion that the Soviet Union was an evil empire 
was far more important than even the increases in military 
spending during his administration.
    In fact, I was very proud to be part of Reagan's 
administration, one of his principal speech writers, and I know 
that his speech at the British Parliament in which he 
established the National Endowment for Democracy was a huge 
turning point, I believe, in the struggle for freedom 
throughout the world.
    These are things that I think we must----
    I overstayed already? Well, thank you, Mr. Chairman.
    We have a challenge in China as well as radical Islam, and 
we must stand up for human rights. That is how we succeed.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    Does any member of the committee seek to make an opening 
statement?
    The gentleman from Texas, Mr. Green, is recognized for 1 
minute.
    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
today. I would like to welcome the witnesses.
    Promoting human rights and democracy around the world is an 
important, worthwhile and strategic goal of American foreign 
policy. The United States must remain a global leader in this 
area. And I have long believed that the best way for us to show 
its leadership is through soft assistance to other countries. 
This is accomplished through foreign assistance programs 
involving a team of different organizations, each playing 
different roles. We are here today as part of that team, and 
the role we play is to find ways that reform and strengthen the 
structure of these programs so they can be more flexible, 
accountable, and efficient.
    Promoting human rights and democracy is a bipartisan 
foreign policy objective, and finding ways to make our foreign 
aid programs more effective should be likewise a bipartisan 
effort. It is important to remember that providing soft 
assistance to countries helps us promote American values and 
interests around the world and avoid the need for possible 
complicated and expensive interventions.
    Mr. Chairman, having been to both Afghan and watched what 
our foreign assistance is trying to do with our military in 
alternative crops and watching it also in Latin America, I 
think we have realized it is so much cheaper to provide foreign 
assistance than it is to activate the 101st Airborne or 82nd 
Airborne.
    So, with that, thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Smith from New Jersey is recognized for 1 minute.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, I want to welcome our very distinguished 
panel of human rights activists and leaders. Thank you, along 
with Ranking Member Ileana Ros-Lehtinen, for calling this 
hearing.
    With the TIP Report findings coming out on Monday--due to 
come out on Monday, I am very concerned that countries where 
there has been an egregious erosion of human rights relative to 
a whole number of areas but especially in the area of human 
trafficking, that countries like China, Vietnam, and India, 
will be looking very carefully to see if they are on the list 
of Tier 3 countries. My hope is, no matter what the remedy or 
penalties that might be prescribed after that, we need to speak 
truth to power to each of those countries about what is truly 
going on in the area of human trafficking.
    And, also, Mr. Chairman, I remain very concerned that now, 
a year and a quarter into this administration, that to the best 
of my knowledge we still do not have an Ambassador at Large to 
run the International Religious Freedom Office. That is a 
revelation of priorities. It is, I think, a serious mistake by 
this administration; and I hope that they soon name that 
person.
    Chairman Berman. The time of the gentleman has expired.
    Does anyone else seek recognition?
    The gentleman from Georgia, Mr. Scott, is recognized for 1 
minute.
    Mr. Scott. Thank you very much, Mr. Chairman.
    I just want to say real briefly that, as a member of the 
committee and like many on this committee who travel, we want 
to give a very good compliment to our foreign aid and Foreign 
Service workers, many of them in places where their lives are 
on the line.
    But I must add that we have an efficiency problem of how we 
effectively use our resources, and we have got to address that, 
and I am very hopeful that this hearing will certainly 
accomplish that purpose.
    Thank you, sir.
    Chairman Berman. Are there any further requests for time?
    The gentleman from California, Mr. Royce, is recognized for 
1 minute.
    Mr. Royce. Thank you, Mr. Chairman.
    Last month, the State Department hosted a Chinese 
delegation in Washington for 2 days of what we call human 
rights dialogue; and according to State's point man on human 
rights there, we didn't tell China anything. This was a 
discussion among two important countries.
    I think for me the comments by the Assistant Secretary of 
State, Michael Posner, he said he brought up the new Arizona 
immigration law early and often and also noted ``a troubling 
trend in our society and an indication that we have to deal 
with issues of discrimination.''
    I regret very much that he is not here today, and I think 
he should be before this committee to clarify why he chose to 
focus on these issues, as opposed to China's abysmal record 
that includes religious repression, extrajudicial killings, 
prison camps, no freedom of expression, not to mention the 
forced repatriation of North Korean refugees back across the 
border to face certain death.
    There are credible reports China has been harvesting the 
organs of religious minorities. The human rights situation in 
Communist China is beyond grim. But to hear State describe it, 
we have got the same issues. This downplay of China's 
despicable human rights record is deplorable.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 1 minute.
    Mr. Connolly. Thank you, Mr. Chairman. I want to welcome 
our panelists here; and I want to thank you, Mr. Chairman, for 
having this hearing. And I particularly want to tie it to our 
pending rewrite of the Foreign Assistance Act of 1961.
    The whole question of democratization, building democratic 
institutions and human rights have many elements that are 
similar to conditions that prevailed 50 years ago, but a lot 
has changed. And so, in the post Cold War world, is it not time 
to revisit some of these issues and make sure that the 
institutions we support are well structured to promote the 
values and the institutions we want to see succeed?
    So I am looking forward to this hearing, Mr. Chairman, and 
I continue to enjoy and look forward to working with you in 
this ongoing effort to make sure we take cognizance of those 
changing circumstances in that all-important rewrite.
    Thank you, and I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. Thank you for 
convening this very important hearing, and we thank the 
witnesses for coming.
    Mr. Chairman, Alexis de Toqueville once said that the 
greatness of America lies not in being more enlightened than 
any other nation but rather in her ability to repair her 
faults. I believe that this committee's efforts to increase the 
effectiveness of foreign aid are embodied in this quote.
    The NGOs that work to promote democracy, protect women's 
rights and health, and increase opportunities for the poor to 
direct them away from terrorism need fast and effective aid to 
achieve these worthwhile objectives. However, one thing that 
U.S. agencies seem to struggle with is the issue of relative 
performance.
    No country has a spotless human rights record, and the 
challenges in developing countries are even greater. Trying to 
distinguish between countries that are relatively better on 
human rights and whose governments are taking the right steps 
becomes difficult when incidents arise. If the expectation of a 
perfect record is not realistic, how can decision makers decide 
what is good enough? And we must also focus on women's rights 
as we go forward and make that a very important issue.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    Chairman Berman. The time of the gentleman has expired.
    The chair is unaware of anyone else seeking recognition for 
an opening statement, so we will now have the pleasure of 
introducing our panel and hearing from them.
    It is 10 o'clock<greek-l> o'clock deg.. We started the 
hearing at 9:30. We get to witnesses by 10. That is good.
    Thomas Carothers is vice president for studies at the 
Carnegie Endowment for International Peace. He oversees the 
Endowment's Middle East program, Carnegie Europe, and the 
Democracy and Rule of Law program, which he founded. Mr. 
Carothers has worked on democracy assistance projects for many 
public and private organizations and carried out extensive 
field research on democracy building programs around the world. 
He also has significant experience in the fields of 
development, human rights, comparative politics, international 
institutions, and foreign aid.
    Lorne Craner is president of the International Republican 
Institute. He previously served as Assistant Secretary of State 
for Democracy, Human Rights, and Labor. A member of the Council 
on Foreign Relations, Mr. Craner has testified on numerous 
occasions before House and Senate committees; and I have had 
the pleasure of having a chance to meet with him in the past on 
democracy promotion issues.
    Jennifer Windsor is the executive director of Freedom 
House. Previously, she served as deputy assistant administrator 
and director of the Center for Democracy and Governance at the 
U.S. Agency for International Development. Ms. Windsor began 
her service at USAID working on democracy and governance issues 
in Africa, and also served as special assistant deputy chief of 
staff to then-USAID Administrator Brian Atwood.
    Elisa Massimino is president and chief executive officer of 
Human Rights First, where she has worked for almost two 
decades. Previously, she was a litigator in private practice at 
a Washington law firm where she was pro bono counsel in many 
human rights cases. Ms. Massimino writes frequently for 
mainstream publications and specialized journals and has 
testified before Congress dozens of times.
    We are pleased to have all you here.
    Mr. Carothers, why don't you start? And, of course, 
everyone's opening statements in their entirety will be 
included in the record and feel free, where appropriate, to 
summarize.

    STATEMENT OF THOMAS CAROTHERS, J.D., VICE PRESIDENT FOR 
      STUDIES, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Carothers. Thank you very much, Mr. Chairman, members 
of the committee. It is my pleasure to be here today.
    Supporting democracy abroad is a vital part of U.S. policy. 
Democracy assistance programs are a crucial tool in that goal. 
A well-crafted rewrite of the Foreign Assistance Act can help 
make democracy assistance more effective.
    I appear before the committee today as someone who studies 
democracy assistance. I try to understand what works and what 
doesn't, how we can make it better. I am often known as a 
critic, because I think we often fall short of our ideals and 
our aspirations. But I am a critic who believes in the overall 
endeavor, and my critical comments both today and in general 
are aimed at that larger goal.
    The committee has before it many questions and issues with 
regard to democracy and human rights assistance. One of which 
is clearly on the committee's mind is whether or not there are 
too many sources of democracy aid in the U.S. Government. There 
sometimes appears to be almost a chaotic salad bar of 
institutions involved, and one can wonder is there unnecessary 
duplication and a lack of coordination in this area? I 
understand the instinct to worry about this, but I don't think 
that is the central problem.
    Democracy assistance is complicated. There are a lot of 
different parts to it, many different places, many different 
themes. It is useful having different organizations that 
develop different strengths and weaknesses.
    Also, democracy aid has a complex relationship to U.S. 
foreign policy. Sometimes it is good to have democracy aid 
coming from the State Department, where it is directly 
integrated into policy. Sometimes it is good having it come 
from a nongovernmental organization like the National 
Endowment, where it is at arm's length. Having a variety of 
institutions gives you more flexibility, a greater range of 
tools in democracy assistance.
    Moreover, I don't really see coordination as a problem, and 
I do a lot of research on the ground asking people what can 
make this assistance better. People working on the ground from 
the different parts of the U.S. Government, the different 
agencies and organizations talk to each other. They know what 
they are doing. There isn't a lot of problem with coordination 
or tripping over each other.
    So where do the problems, then, lie? I think the problems 
lie more in how the assistance is being given out. The key to 
improve it is not to reduce the number of sources, but to make 
each source work as effectively as possible; and I would like 
to focus my time here on USAID, which is the big fish in this 
pool.
    USAID is by far the largest source of democracy assistance, 
well over $1 billion a year. In fact, USAID has devoted more 
resources, more energy, and more time to democracy assistance 
than any organization in the world in the last 25 years. USAID 
has done many valuable things in this domain, but time is 
short, so I will cut to the quick.
    USAID's democracy assistance has serious problems 
reflecting serious problems that have been facing the agency 
for many years. First and foremost, it is extremely 
bureaucratic. Our assistance, unfortunately, is often 
inflexible. It is cookie cutter. It is slow. It is cumbersome.
    Democracy aid needs the opposite. You need innovation, 
flexibility, the chance to seize opportunities. USAID is 
weighted down by a bureaucratized system that makes it often 
ineffective on the ground. It needs a serious bureaucratic 
cleaning of the house, a debureaucratization.
    I ask the committee and the House not to think of putting 
more and more procedures, regulations, requirements on an 
agency that is already in a sense groaning underneath those 
that weigh upon it. It doesn't need, obviously, to be let loose 
from legislation, but it needs freedom. It needs air to 
breathe. It needs the possibility of debureaucratizing itself 
and operating more in the spirit of democracy itself.
    Secondly, USAID does not give enough roles to the people in 
the countries with which it is trying to work. Too often when 
it does a project it hires some Americans to come in and design 
it, another set of Americans to come in and implement it, a 
third set of Americans to come in and evaluate it. This is not 
the way you choose local institutions. There needs to be a 
change in spirit and practice here. I don't mean that we should 
necessarily just give money directly to the local people, but 
we need to give money in a way, sometimes to U.S. 
organizations, sometimes directly to locals, that allows them 
to have real partnerships with Americans, to have long-term 
relationships, not short-term projects in which Americans come 
and just tell them what to do.
    Third, USAID has been doing democracy work for 25 years but 
still doesn't get a strong enough place within the agency. If 
you go to USAID and ask who is the most senior person 
responsible for democracy issues, it is not the administrator, 
it is not the deputy administrator, it is not an assistant 
administrator, it is a deputy assistant administrator, of whom 
there must be dozens at the agency. Yet we claim that this is a 
central priority of the agency.
    There needs to be an elevation in a number of ways, which I 
could go into in the questions and answers, to elevate the 
place of democracy within USAID.
    What will it take to do these things--to debureaucratize, 
to strengthen local actors, to give the greater place? Above 
all, leadership from the agency, drive from the top. This is an 
agency that responds to central imperatives from the 
leadership; and a willingness to focus on these often less 
glamorous bureaucratic, procedural, procurement issues that 
really are the thing that makes the agency ineffective or 
effective depending on how they are carried out.
    It will also require the support of Congress; and, as I 
said, it will require Congress to have a helping and sort of a 
thoughtful in itself a nimble hand in helping USAID achieve its 
potential, rather than simply trying to impose on it more and 
more procedures, regulations, rules that are already, to some 
extent, suffocating the agency.
    I ask that the remainder of my written testimony be entered 
into the record, and I thank you for the opportunity to appear 
today.
    [The prepared statement of Mr. Carothers 
follows:]<greek-l>Thomas Carothers deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much, and as I indicated 
your statement will be in the record in its entirety.
    Mr. Craner.

    STATEMENT OF THE HONORABLE LORNE W. CRANER, PRESIDENT, 
INTERNATIONAL REPUBLICAN INSTITUTE (FORMER ASSISTANT SECRETARY 
        OF STATE FOR DEMOCRACY, HUMAN RIGHTS AND LABOR)

    Mr. Craner. Mr. Chairman, Congressman Ros-Lehtinen, members 
of the committee, thank you for the opportunity to testify 
today. I commend you for calling this hearing on ways to better 
help the oppressed abroad.
    When I joined the Bureau of Democracy, Human Rights, and 
Labor some years ago, a friend of mine named Penn Kemble, who 
was just coming out of the administration, gave me a piece of 
advice that I didn't believe at the time. He told me that on 
advancing human rights and democracy in the administration my 
best friends would be here in the halls of Congress. I learned 
that he was right. Congress is the branch of our Government 
that most closely represents the American people, who are good 
and decent, and they want a foreign policy that reflects those 
traits.
    For those reasons, three decades ago, Congress created my 
old bureau, DRL. Over administration objection, the Congress 
mandated the Human Rights Reports. In the last 10 years, 
Congress, each time over administration objection, created 
State department offices to combat anti-Semitism, and to combat 
trafficking and to further religious freedom. Congress also 
passed the ADVANCE Democracy Act recently, after much back and 
forth with the Bush administration.
    These actions all greatly enhanced our efforts to promote 
human rights and democracy.
    Today, we face tougher obstacles abroad; and more action is 
needed. As I told Secretary of State Condoleezza Rice after I 
had left the administration but when I headed the State 
Department's Advisory Committee on Democracy Promotion, our 
Government bureaucracy is not organized to deliver on 
Presidential promises on democracy and human rights. USAID's 
democracy capabilities are weak, career officials need to be 
better trained and incentivized, there is an excessive 
bureaucracy at the State Department on this issue, and better 
coverage is needed across the field.
    The paper being circulated by the majority addresses many 
of these issues. My written statement has a comprehensive 
rundown of my views, including some additional thoughts on the 
paper's provisions. But I believe that those upgrading USAID's 
democracy office, requiring mission plans, consolidating 
reporting requirements, and requiring diplomat training and 
assignment to functional bureaus have special merit.
    I would commend my friend Tom Carothers' paper to you. It 
describes additional problems and solutions for USAID. I hope, 
as do Tom and I think Jennifer, that USAID can be revitalized. 
If not, in a tough budget climate, an amount of democracy 
funding should be deducted from USAID, with part going to the 
more efficient DRL and NED and the remainder, frankly, going to 
reduce the budget. Other changes I suggest are addressing the 
creeping bureaucratization of DRL and the much worse, valueless 
bureaucratization of the ``F'' process.
    Mr. Chairman, I believe there is another reason to act. As 
I describe in my written testimony, the Obama administration is 
facing many of the same questions on human rights that were 
faced early in the Reagan administration almost 30 years ago. 
Both succeeded unpopular Presidents whose foreign policy 
problems were seen to have been based on a misplaced concern 
with human rights, and early in both administrations the 
concern about human rights was downgraded.
    In Reagan's case, congressional reaction, including by a 
then Republican Senate, helped bring the administration around. 
Within 17 months of his inaugural, in fact 28 years ago this 
week, President Reagan delivered the Westminster speech, which 
was referred to earlier. He had recrafted President Carter's 
policy, but he also added a strategy and the means--the NED and 
vital diplomacy--to accomplish it.
    From the editorial pages of the Post and New York Times to 
dictators, Democrats, and dissidents abroad, the current 
administration's human rights and democracy policies have been 
found wanting. The President has delivered a good number of 
speeches on this issue, and the recent national security 
strategy is a good addition. But 17 months into his 
administration, he has not put in place a strategy and a means 
to build on the 33-year bipartisan policy that preceded him.
    In the past, whether it was a Republican or Democrat 
Congress or a Republican or Democrat President, Congress, when 
it has found the administration wanting, has taken action and 
brought forth legislation that helped put us back on track. 
Today, we will be reviewing some of those proposals. Whether 
they are considered as part of a larger bill or on their own, I 
hope Congress will soon act.
    Thank you.
    [The prepared statement of Mr. Craner 
follows:]Lorne Craner 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Ms. Windsor.

   STATEMENT OF MS. JENNIFER L. WINDSOR, EXECUTIVE DIRECTOR, 
                         FREEDOM HOUSE

    Ms. Windsor. Chairman Berman, distinguished members of the 
committee, thank you for convening this important hearing.
    I want to start by complimenting your staff on the 
excellent discussion paper on human rights and democracy. 
Freedom House supports many of the changes proposed in that 
paper. We believe that the U.S. should advance democracy and 
human rights as an end in itself as well as a way to advance 
other U.S. interests. In particular, we welcome the fact that 
the draft Presidential study directive appropriately 
prioritizes and recognizes the role of democratic governance in 
U.S. development policy. If there is anything that we have 
learned from good development policy it is that it has to take 
into account the political structures, and democratic 
governance is a vehicle in which to achieve better development.
    We are in a time, unfortunately, of a global freedom 
recession, as our various studies have shown. Of particular 
concern is the assault on and erosion of fundamental freedoms 
of association and expression, the very freedoms upon which 
democratic systems that respect human rights are based.
    International human rights defenders have asked for more 
U.S. support and more U.S. leadership in these areas, as you 
can see from the action plan that came out of the Washington 
Human Rights Summit we convened with Elisa and Human Rights 
First earlier this year.
    I want to now turn to current U.S. capacity to handle these 
challenges. The committee discussion paper notes and several of 
my co-panelists have noted the problem of multiple actors, but 
we actually agree that, while there might be a need for better 
coordination, that consolidating democracy and human rights 
programs into any one entity either within or outside of the 
U.S. Government would be very counterproductive. Pluralism in 
this case has supported innovation.
    While Tom Carothers has already mentioned the problems of 
<greek-l>a  deg.USAID, I want to add my 2 cents since I worked 
there for almost 10 years before I came to Freedom House. I 
believe that USAID needs a strong central unit to complement 
and guide the work done by USAID field missions. The current 
Office of Democracy and Governance needs more human, more 
financial resources, and more policy influence.
    I wholeheartedly agree with the paper's recommendation that 
the Democracy and Human Rights Office staff and programs be 
removed from the Humanitarian Conflict Bureau and elevated 
within the agency to a bureau that is on par with the other 
development sectors.
    More broadly, though, in talking about all parts of the 
U.S. Government, we need more discussion on what the proper 
role for any official from the U.S. Government should actually 
be in managing democracy and human rights programs.
    While, of course, we expect our Government officials to 
ensure that taxpayer dollars are used efficiently, excessive 
government control and involvement can be counterproductive. It 
can stifle innovation in programming and prevent programming 
that is flexible and responsive to the needs on the ground. The 
very lessons that we have learned from Tom Carothers and other 
studies is that we need to be more flexible and more able to 
change in this area; and I am worrying that we are seeing too 
much micromanagement from U.S. Government officials that are 
pushed by a number of pressures, including from the Hill, in 
this area.
    I now want to turn to the issue of results.
    Many of the members here mentioned the need to make sure 
that there is efficiency and effectiveness of our programs. We 
have problems, a number of problems, with the current system 
that has been put in place with the ``F'' process. The agency 
and now the State Department have been struggling with the 
issues of results for many, many years. I want to just make a 
couple of points about the area of democracy and human rights 
which I think provides unique challenges in this area.
    First, attributing progress in a country to specific U.S.-
Government-funded programs may undermine the very legitimacy of 
groups and individuals that are the intended beneficiaries of 
those resources. If you say that assistance to Ukraine brought 
about the Ukrainian Orange revolution in Ukraine, that 
delegitimizes the very people that brought about that change. 
U.S. programs absolutely helped, but that doesn't mean that 
they have been--they themselves are the cause for the change.
    Second, context matters a great deal in what results in 
democracy and human rights can be achieved. In a relatively 
open country like Nigeria, a program to support human rights 
groups can result perhaps in a change of law or change in 
practice that better protects human rights. But in a situation 
like Ethiopia, the mere survival of independent human rights 
groups represents an important achievement, given the Ethiopian 
Government's attempts to try to stifle all civil society 
activity in this area.
    Third, in this time of a downward trend in freedom around 
the world, the system of impact measurement and expectations 
must be adapted to realities. It may be enough that the 
situation does not get worse.
    Fourth, in places like Burma, North Korea, Uzbekistan, 
Iran, the United States should be providing a lifeline of 
support to human rights defenders, regardless of whether there 
are measurable results.
    I would like to finish by being a bit provocative. The term 
``country ownership'' has come up in a broader context of 
foreign aid reform. We fear that this term may be 
misinterpreted to mean that governments should be able to veto 
the kind of assistance that the U.S. or others provide in a 
country.
    The Obama administration has made a series of very bad 
decisions in this regard. They have recently zeroed out funding 
for democracy and governance and human rights in Bolivia at the 
request of the government there. They have limited USAID 
funding in China, Russia, Uzbekistan, and Egypt only to 
registered organizations when we know that such registration 
processes are being used to control or eliminate<greek-l>, 
quote, deg. ``undesirable activities of human rights groups.''
    Meanwhile, the State Department is moving ahead with plans 
to set up a $300-million Mubarak-Obama endowment for Egypt. 
This is country ownership in its worst form.
    Let me state for the record that we oppose the U.S. 
Government signing any agreement that gives authoritarian 
governments veto power over U.S. support for democracy and 
human rights. Similarly, we oppose any attempts that attempt to 
involve governments in determining what is responsible NGO 
behavior or regulation of independent media in the Internet. In 
these cases, governments always are the problem.
    I want to end by recognizing efforts of this committee to 
move forward the process of U.S. foreign assistance reform. I 
thank you for the opportunity to appear today.
    [The prepared statement of Ms. Windsor 
follows:]Jennifer Windsor 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Ms. Massimino--and I apologize for 
mispronouncing your name. It is not a name I am familiar with. 
Go ahead.

    STATEMENT OF ELISA MASSIMINO, J.D., PRESIDENT AND CHIEF 
             EXECUTIVE OFFICER, HUMAN RIGHTS FIRST

    Ms. Massimino. Thank you, Mr. Chairman. I, too, appreciate 
the opportunity to be here today to share our recommendations 
on this important issue.
    The existing statutory framework for foreign assistance is 
sorely in need of an overhaul after nearly half a century; and 
we are very grateful for your leadership, Mr. Chairman, and 
that of this entire committee in tackling this challenge head 
on. I want to echo my colleagues' thanks to the committee staff 
who have consulted widely with stakeholders as part of this 
process.
    My comments today will focus on the committee's human 
rights and democracy discussion paper that you referenced. 
Human Rights First, along with a number of other groups, have 
put forward two sets of recommendations to the committee over 
the last several months, and I have attached those as part of 
my testimony and ask that they be made part of the record.
    Our views on this issue are also shaped by the 
recommendations which came out of the summit that Jennifer 
mentioned that we co-hosted with Freedom House here in 
Washington in February which brought together activists from 
over two dozen countries to discuss the challenges that they 
are facing and to formulate recommendations to governments for 
how to strengthen support for those on the front lines, 
including this government and actions by this government. So I 
ask that those recommendations be made part of the record as 
well.
    Chairman Berman. Without objection, they will be included.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Massimino. Thank you.
    Let me begin by saying we very much welcome the overall 
approach in the committee's discussion paper. It includes a 
number of the recommendations that we have put forward. That 
said, legislative reform has to be a lot more ambitious in 
order to meet the objectives that the committee has set out.
    I would like to highlight just three principles that we 
believe ought to guide those efforts. The first relates to much 
of what we have heard today, including from members of the 
committee, is do no harm. It is essential that the U.S. 
assistance, especially security assistance, does not undermine 
respect for human rights or democratic governance or lend 
legitimacy to governments that violate fundamental rights. 
Where possible, assistance should provide incentives to 
encourage recipients to improve their human rights performance.
    Second, foreign assistance that is specifically designed to 
achieve human rights outcomes must be based on a clear strategy 
and operate through multiple channels in order to be effective.
    And, third, a new statutory framework for foreign 
assistance ought to strengthen the infrastructure to advance 
human rights throughout the government, not just at the State 
Department and USAID. A whole of government approach to 
advancing human rights and democracy should result in 
reinforcing messages and consistent political support for human 
rights from all parts of the government.
    Let me elaborate briefly on each of these principles.
    In the area of doing no harm, the committee's discussion 
draft rightly prioritizes an effective minimum standard of 
human rights compliance before permitting a country to receive 
USAID and highlights the need to evaluate existing assistance 
to determine its impact on human rights. We recommend that the 
legislation build incentives that will help move recipients of 
assistance away from practices that violate human rights. This 
could be done by establishing an annual process for determining 
which recipients of U.S. security assistance have significant 
human rights problems, and such a finding could result in 
withholding a certain percentage of security assistance, both 
State and DoD funded, until specified improvements are 
achieved.
    Congress ought to authorize affirmative assistance to help 
those governments meet improvement benchmarks and avoid having 
their aid permanently reduced.
    The absence of effective conditionality on foreign security 
assistance fuels the damaging impression that the United States 
Government condones or even supports human rights violations 
committed by recipient security forces and governments. Such 
impressions are harmful to the broader U.S. national security 
interests and represent a significant cost that should be taken 
into consideration when objections are raised suggesting that 
applying human rights conditions will complicate or worsen 
vital strategic relationships.
    Another aspect of this principle of do no harm is that we 
have to ensure that the way in which U.S. foreign assistance is 
delivered doesn't undermine the basic political freedoms that 
the assistance is designed to promote. For example, as Jennifer 
pointed out, we should not be acceding to the demands of other 
governments to vet or restrict U.S. foreign assistance to 
independent human rights organizations. Those kinds of 
arrangements create the impression that governments hold the 
veto power over the way that U.S. funds are dispersed and 
restrict access to much-needed support for very vulnerable 
local human rights defenders.
    We very much welcome the discussion papers focused on 
strengthening the Leahy law and incorporating it directly into 
the statutory framework for foreign aid. Restrictions on aid to 
security units who have committed severe violations of human 
rights with impunity are vital in upholding the do no harm 
principle. We strongly endorse the expansion of the Leahy law 
to units of recipient governance beyond the security forces, 
which should include police; and we also welcome expansion to 
aid provided by the Defense Department.
    The Defense Department has become, as you know, a huge 
donor of foreign aid. One estimate has the DoD at $8.9 billion 
in military aid worldwide in Fiscal Year 2009, outstripping all 
the programs administered by the State Department. It is 
essential that we bring transparency and oversight to that 
process as well as bring DoD aid squarely under human rights 
policy. To do that right, there has to be a good process for 
gathering evidence of human rights violations and including 
adequate funding to do that oversight. So we recommend that 
this be supported by a fee on security assistance to help shore 
up the infrastructure designed to do that.
    We also welcome the discussion draft's emphasis on human 
rights and democracy action plans. That is something that we 
have called for for many years. These are essential building 
blocks, and affirmative assistance ought to be funded as part 
of an overall strategy embodied in those plans. USAID human 
rights assistance in particular should be tied directly to 
multi-agency strategies to promote human rights in a specific 
country, rather than being derivative of an overall USAID 
country strategy. Those action plans should include strategies 
to support independent human rights groups, and they ought to 
be involved in the development of those strategies.
    In our view, it would be a mistake to view assistance 
designed to advance respect for human rights as a subset of 
democracy assistance, as the discussion draft seems to suggest. 
Human rights and democracy are inextricably connected. Only 
when human rights are respected can democracy be secured. Yet 
it is also possible and sometimes it is critically important to 
advance human rights objectives through affirmative assistance 
in nondemocratic countries or in countries where the strategy 
to promote democracy is unclear. In those countries, support 
can be provided to human rights defenders to enhance their 
efforts to document violations, advocate for international 
bodies, and raise public awareness. That is critically 
important if we are going to build a civil society to advance 
human rights and democracy.
    The discussion draft proposes strengthening the democracy 
and human rights functions at USAID; and while USAID can 
certainly do more to advance human rights objectives, we would 
caution against an overreliance on that approach. I think this 
is consistent with what you have heard from all of the 
witnesses. Decision making there is heavily concentrated in 
field missions and for many of the development objectives the 
mission works closely with the host government in some cases, 
as it should. But that just underscores for us the need for 
multiplicity of actors in this area and against consolidation.
    As part of the mix, the State Department's lead bureau with 
human rights and democracy promotion, DRL, has to have 
sufficient capacity to do this. That really underscores the 
necessity for building up all the levers of our power.
    One important recommendation out of the Human Rights Summit 
that we heard from our human rights colleagues was that the 
United States needs to facilitate, support, and strengthen 
engagement by independent civil society organizations in 
regional and subregional multilateral bodies; and we would 
welcome an emphasis on that and specific attention to 
supporting those efforts.
    Finally, in our view, none of this works unless there is a 
whole-of-government approach. This goes a bit to what Ms. Ros-
Lehtinen mentioned about consistency in our diplomacy.
    A lot of the infrastructure of the U.S. Government to 
advance human rights globally is embedded and traced to the 
Foreign Assistance Act, the country report; and any rewriting 
of that should strengthen the ability of the entire government 
not only to deliver more effective assistance but also to 
ensure that the rhetorical commitment of the U.S. to universal 
human rights is backed up with committed action as a foreign 
policy priority.
    For those country plans to work, they need to exist more 
than just on paper. They have to become part of the fabric of 
the U.S. approach to every country across all government 
agencies. That requires leadership from the top, and it is 
going to require consistent oversight from you all here. And 
there has to be somebody in charge of implementing those plans. 
That could be the U.S. Ambassador, the Chief of Mission, but 
there needs to be somebody designated. And, of course, there 
has to be sufficient resources. That has got to be backed up by 
sufficient resources and attention here in Washington; and we 
think that the regional bureau in the State Department, each of 
them should have a Deputy Assistant Secretary devoted to human 
rights.
    In conclusion, I want to point out that in the national 
security strategy that President Obama released just recently 
it was structured around looking at the world as it is and the 
world as we want it to be. We see foreign aid as a critical 
vehicle in getting us from point A to point B. This is a moment 
when our U.S. interests and values are so aligned, to align our 
foreign aid structure to those values, and we look forward to 
working with the committee to seize that opportunity.
    [The prepared statement of Ms. Massimino 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. I thank all of you very much.
    We will now go to the comments and questions of the panel 
under the 5-minute rule. That means if the question takes 4 
minutes and 55 seconds, the panelists have 5 seconds to answer.
    I will recognize myself for 5 minutes.
    There are many questions to ask, and I won't be able to 
raise all of the issues I would like to pursue with you, but 
let me start with this. I do this notwithstanding what could be 
interpreted as Ms. Windsor's admonition, and I take her point 
not so much as crediting America for something happening, you 
do have to measure effectiveness of programs, and that requires 
some discussion of what has happened as a result of programs.
    In a recent briefing to committee staff, a senior 
government official claimed we don't really know how to do 
democracy and governance programs and that devoting additional 
funds to this area--and presumably continuing to fund at the 
current levels--would be a waste because they have failed to 
achieve tangible results.
    Do you agree with that assessment? Can you provide 
meaningful examples of where our democracy and governance 
programs have achieved meaningful results?
    Ms. Windsor. Well, I will start to say that I absolutely 
agree with you that we should be knowing whether programs are 
actually good programs and are making a difference, whether 
they get attributed to the U.S. or not.
    I am sorry to hear about the senior government official. 
There are at least 20 or 30 briefing books that are in USAID 
and the State Department on different results measurement, and 
there is actually an outside book prepared on this, and I am 
sure I could recommend some reading.
    So let's talk about what kind of results one can see. I 
will use Freedom House programs, because it kind of concretizes 
it.
    When Lorne was the Assistant Secretary of DRL, we received 
funding for an independent--to try to set up an independent 
printing press in Kyrgyzstan because there was no alternative 
capacity to that of the state and the states in the region to 
print alternative newspapers. It was a way that the government 
used to try to control the free flow of information.
    The U.S. invested in this. Everyone said technically there 
is no way that it can be helpful, and now there is actually a 
printing press that works. There are opposition newspapers that 
have been printed on it. There are a lot of other things that 
have been printed on it. The state printing press has had to 
upgrade its capabilities.
    Has this changed democratic development in Kyrgyzstan? No. 
As we can see, during that time, Kyrgyzstan has gone through a 
number of political changes. It is not responsible for that, 
but this is an example of a good investment.
    We were talking about the issue of women's rights. In 
Jordan, a program we had working with Jordanian human rights 
and women's rights organizations to look at honor crimes, we 
brought a lot more awareness to the issue; and one of the parts 
of raising awareness was to look at how courts actually treated 
these issues. So we monitored with our local partners hundreds 
of cases. Out of that, the recommendation was that there needed 
to be a specialized court chamber to hear cases in a more 
equitable manner, and that was put in place.
    Now again, I think that was a good recommendation. Is there 
still a problem in terms of treatment of women in Jordan? Yes. 
Do we think that this is an effective use of money to be able 
to advance the process? Yes.
    Chairman Berman. Let me ask, does anybody else want to 
weigh in on this?
    Mr. Craner. I would. I was kind of shocked to hear you say 
that, and it makes me wonder where this diplomat has been for 
the last 25 years. I think if you talked to folks in the 
Philippines or Chile or Serbia or Indonesia or Georgia or 
Moldavia or many other places, I know that they say our aid has 
been effective.
    I will tell you a story. I was in Bratislava, Slovakia, 
talking to Mikulas Dzurinda who defeated Vladimir Meciar in the 
1998 election, and I said, ``This place looks a lot 
different.'' I had driven in from the airport. There was a lot 
more economic activity. There was clearly a lot of investment. 
There was even an IKEA out by the airport. And I said, ``Now 
you are in the EU and NATO.'' I said, ``This is all due to you. 
This is because of your presidency from 1998 to 2002.''
    He said, ``No, it is not. It is all due to you. It is all 
due to the assistance that you gave us.'' He said, ``Without 
your assistance, we could not have done this.''
    Jennifer is right. Measuring this is an art, not a science. 
This is not like how many kids did you immunize or how many 
miles of road did you build, but it is measurable. And I would 
be happy to brief your staff on some of the work we at IRI have 
been doing. But the foreigners are our best evidence that it 
works.
    Chairman Berman. Thank you very much.
    My time has expired, and I yield to the ranking member, 5 
minutes.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    I have three country specific questions: On Iran, should 
the Iran Democracy Fund be restored? And, if so, what should 
its specific objectives and performance benchmarks be?
    On Cuba, the Cuban regime's imprisonment of U.S. citizen 
Alan Gross has effectively put U.S. democracy assistance to 
Cuba on hold for months, playing directly into the 
dictatorship's hands. Do you believe the administration should 
continue to allow the Cuban regime to dictate our assistance to 
freedom seekers on the island?
    And, finally, on Haiti: Keeping in mind the relatively 
fragile state of Haiti's Government, what role do you think 
democracy assistance should play with regard to U.S. immediate 
and long-term assistance funding to Haiti?
    Lorne, let's start with you.
    Mr. Craner. Let me talk about Cuba first. I have also found 
this very, very frustrating.
    I understand reluctance to--on the surface a reluctance to 
continue the programs, but I think with a few minutes of 
thought we ought to be able to get past this. There are many, 
many programs that have been done over the years in a similar 
fashion. I don't hear any complaining about this kind of 
program going on in Zimbabwe. I don't hear any complaining 
about this kind of program going on in Burma or North Korea or 
many other places. It seems to be focused on Cuba.
    Ms. Ros-Lehtinen. Thank you.
    If I can have the others discuss Iran and Haiti.
    Ms. Windsor. Let me comment on Iran. I think it is less 
important where the Iran program is placed. If in fact it 
provides less rhetorical interference by putting it under a 
regional program, I think that is not a problem. The problem is 
what it is actually focusing on and what the approach is. Some 
of the decisions have been made that we don't agree with, 
programs that have been cut off and other programs that have 
been funded, and it is very hard to figure out what the 
strategy is.
    We think that priority for assistance should be given to 
political prisoners, refugees, and Internet and securing 
digital communications. It seems like if we have a number of 
very critical areas we identify the priorities and let's strive 
toward those.
    Ms. Ros-Lehtinen. Thank you.
    On Haiti?
    Ms. Massimino. I would like to add a word on Iran, if I 
could.
    Obviously, assistance to a country like Iran is incredibly 
complicated. From our perspective, it is very important to take 
into account the views of the activists inside the society. We 
have to be really careful, as Jennifer pointed out, to focus on 
what objectives we are trying to achieve there. We have to be 
very careful not to conflate regime change with human rights 
promotion. That is essential.
    I very much agree with what Jennifer said about where we 
should be focusing our assistance on the political prisoners, 
human rights activists who are so much under siege.
    Mr. Craner. I think you know IRI no longer operates in 
Haiti. I think that the lessening of our democracy assistance 
there is a big mistake. There is a lot of talk about country 
ownership coming out of the administration. I don't know how a 
country can own some of the programs that we want them to own, 
absent a functioning government. That seems to be a big problem 
in Haiti. So to now cut off the assistance to try to help build 
a functioning government, it seems to me that we are going to 
be giving a lot of aid there for a long time because we are the 
only effective actor.
    Mr. Carothers. I would add a word on Iran.
    I think the impulse of the U.S. Government to try to do 
everything that it can to support democracy in Iran is 
commendable, but we also have to be realistic in understanding 
what is possible. The kind of efforts that Lorne described in 
Slovakia that did produce positive results and really a 
wonderful legacy are impossible--or difficult, if not 
impossible, to carry out in Iran because of the lack of 
political space there. So we have to be careful in thinking 
about what kind of opportunities there are there to carry out 
the sorts of training or other kinds of technical assistance 
that we do in other places. So I think with Iran it isn't the 
amount of money that is important; it is the care and the 
sensitivity and the thought with which we do such programs.
    On Haiti, we have to use this effort of reconstruction. If 
you just pile onto a country lots and lots of reconstruction 
money and don't try to integrate a new conception in Haiti of 
when are we ever going to get past the failed state problem in 
Haiti and build that into the reconstruction effort, then we 
are simply repeating the mistakes of the past. I worked on 
Haiti in the late 1980s, and we haven't moved much beyond that. 
So reconstruction does need to be combined with democracy 
assistance to Haiti.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Berman. Thank you.
    The gentleman from New Jersey, Mr. Payne, chairman of the 
Africa and Global Health Subcommittee, is recognized for 5 
minutes.
    Mr. Payne. Thank you.
    Let me say that I am very pleased we are having this very 
important hearing. I apologize that I did not get an 
opportunity to hear the testimony. However, I am very familiar 
with the work done, especially NED, which I think has been a 
very important agency, so to speak, not quite an agency, but by 
NED being the type of organization that it is, it is able to 
transcend whatever administration is in, and the work of NED 
continues to be balanced and to move forward with the IRI and 
NDI and the National Chamber of Commerce and AFL-CIO having all 
of those areas.
    Mr. Craner, we have seen sometimes that the work that we 
attempt to do in countries promoting democracy in some 
countries seems to, in some instances--and I won't go into them 
specifically, but I think you know the ones we are talking 
about--how do we keep a balance, though, of us doing democracy 
building without--and I know it is kind of a delicate balance--
without becoming intrusive or really injecting our own, 
sometimes subconsciously, individual biases or preferences, 
however you want to say it? Because, as you know, in several 
instances on different continents we have heard the criticism. 
And, of course, countries don't want to admit that they have a 
problem, but how do you do that balance?
    Mr. Craner. I think you do it with a couple of things that 
I always tell my staff. One is that we assist, we don't lead. 
That it is our job to walk a couple of steps behind the folks, 
and when they turn to us for advice, give them the advice they 
are asking for.
    Second, we need to understand that it is their country, not 
ours. Their democracy will turn out looking very, very 
different from ours, just as our democracy looks very, very 
different from that of the British, and we are born from them.
    Maybe most of all we need to understand that third, it is 
their fight, not ours. They have chosen to make this stand, and 
we are not there to cheer them on. We are there to give them 
the most objective advice we can about how to help them 
accomplish that.
    Finally, I always say we need to have a very un-American 
virtue called patience. We need to understand that we can't go 
into a country for 2 or 3 years and spend $100 million and then 
say, gee, they don't look like us. That in a lot of these 
countries, especially the ones that are left, it is going to 
10, 15, 20 years to really be able to make a difference. And if 
we are willing to make that commitment, then some better things 
will come out the other end.
    Ms. Massimino. I think one of the key factors in achieving 
that correct balance is listening to the human rights democracy 
activists on the ground.
    Chairman Berman, you asked when has there been real, 
concrete, measurable progress. I would say most of the places 
where that have happened are examples of where we did a good 
job of listening to the activists on the grounds. USAID, which 
helped to establish this innovative new accountability 
mechanism in Guatemala which now is providing an opportunity 
for activists who have been collecting evidence for decades of 
war crimes in that country now have a place to have those cases 
heard. That was done by USAID, and it was done by listening to 
the activists on the ground. And there are numerous examples of 
that kind of concrete progress.
    Mr. Payne. Thank you very much.
    Before my time expires, I just want to throw out two 
questions, and I don't have time to get an answer. But we do 
push democracy. Of course, we pushed elections in Gaza, and we 
ended up with something that we didn't want. That is for sure.
    In Algeria, we had elections. They won. But the NIF, bad 
government, the army went in and said, ``We can't have that.'' 
So sometimes this democracy has a two-edged sword.
    The final thing, I want to say that on August 4 Kenya is 
expected to vote on a draft referendum which is going to 
approve or reject, and it is very important because we saw the 
tragedy that happened after the last election when many people 
died. However, let me just say that outsiders are really 
intruding. There is an anti-abortion provision that has no 
exception for the life of the mother, and there is also some 
999 year leases that outside people don't want ended. So the 
danger is we are going to have outside influence killing a bill 
that the country needs. If they don't get a referendum going, I 
predict the same thing is going to happen at the end of the 
next election that happened with the thousands that were killed 
at the end of the last----
    Chairman Berman. The time of the gentleman has expired.
    For those of us who are willing to sit that long, we will 
have a chance to come back for a second round.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Just a couple of comments, and that is regime change is the 
goal of human rights activists, an activity in dictatorships 
that murder their people and suppress those liberties that we 
consider to be important and valuable. This idea of we are 
supposed to be just engaging these ghoulish, monstrous regimes 
like in North Korea, we are going to engage them rather than 
seek to change that regime is at best counterproductive to 
trying to achieve the goals of a freer people and a freer 
world. What has happened in North Korea through this type of 
logic has been the cementing of their power, rather than the 
replacing of a regime that threatens the peace and stability of 
an entire region of the world.
    I would like to ask a question of the panel. I happen to 
believe that one of the greatest obstacles to achieving the 
human rights goals that we have in mind and that we agree on as 
Americans, one of the greatest obstacles is that we have 
corporate America on the wrong side and that we have people, 
Americans, going over and trying to cut deals with these 
dictatorships, whether it be in China or Ethiopia or elsewhere, 
in a way that basically we are told by that kind of engagement 
we are going to change the Chinese or change this dictatorship 
or that dictatorship when in fact what happens is our corporate 
leaders become mouthpieces for the dictatorship here, rather 
than promoters of democracy there.
    What role does corporate America play in this whole 
struggle? Just comments.
    Ms. Massimino. I think it is huge. I think you are 
absolutely right, that in some countries corporations have a 
bigger footprint and a bigger influence than the U.S. 
Government does. And I think it is vital that we----
    I mean, if you just think about Internet freedom and 
freedom of expression, this was the biggest issue that came up, 
freedom of expression and association in the virtual space at 
the summit that we held in February. While we raised all of 
these concerns and the activists who were here raised them with 
the U.S. Government, the people who really needed to be in the 
room were the heads of Google and Microsoft and Yahoo and these 
other companies.
    I was heartened to see that the State Department has laid 
down a marker, that Secretary Clinton has called these 
companies in to talk about how their actions can be undermining 
and potentially could be supporting our foreign policy.
    Mr. Rohrabacher. People who believe that democracy and 
freedom should be a major priority for American policy need to 
be appalled when they hear that people like Assistant Secretary 
Posner has conducted meetings with the Communist Chinese, which 
happen to be the world's worst human rights abusers, and the 
framework of the discussion is based on America has some sort 
of moral equivalency to these type of vicious dictatorships. 
Well, I am afraid when corporate America deals with these 
dictatorships, whether China or elsewhere, it is already based 
on they are legitimate, meaning our corporate leaders are 
providing legitimacy to any type of agreement in deals they 
make with the cliques that hold power in these vicious regimes.
    I think we need to focus on making sure that we don't 
succumb to this engagement strategy with dictatorships; and, 
instead, we have the strategy of replacing those dictatorships 
on an official level and that we don't let corporate America 
undermine our efforts by giving legitimacy by making deals with 
those very same regimes.
    I have 30 seconds left.
    Mr. Carothers. Well, Michael Posner, I am sure, will have a 
chance to respond.
    Let me say that I know a little bit about those talks. 
Michael Posner has worked for human rights for over 20 years. 
He doesn't believe in a moral equivalence between Chinese human 
rights practices and American ones. I think his approach to 
that dialogue was one that this is going to be a long-term 
process with the Chinese; and in the first conversation you 
have with a difficult partner, you don't start screaming at 
them. I think it was more of a tactical approach, rather than a 
strategic one; and I think he understands the real challenge at 
issue.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Deutch, is recognized for 5 
minutes.
    Mr. Deutch. I will pass at this time, Mr. Chairman.
    Chairman Berman. Mr. Connolly is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    One of the concerns I have had over the years in looking at 
our efforts in trying to foster democratic values and 
democratic institutions, and particularly I am focused on NDI 
and the Republican Institute as well, my observation is we have 
a top-down kind of approach. As somebody who spent 14 years in 
local government, my sense is that democracy is built from the 
bottom up, rather than the top down. I think that is a 
fundamental problem in the pyramid of our efforts; and I am 
wondering, Mr. Craner, if you might comment on that.
    Mr. Craner. I know this isn't the season, but I hope you 
can come out and travel with us so we can allay your fears.
    Both in helping civil society groups and in building 
political parties, we work from the ground up. The political 
parties we usually run into are top down. They are also usually 
very, very small because of that. The point we make with them 
is, if you are only operating in the capital or urban centers 
and if you don't have a platform that appeals to people across 
the country and if you don't have branches across the country 
and if you don't have members across the country, you are not 
going anywhere. So our approach is to help them build from the 
ground up. Because they do, usually not surprisingly in the 
countries where we work, have a very centralized mentality.
    But whether it is us or NDI, come out with us; and I think 
we can allay your fears.
    Mr. Connolly. If we are looking at fostering elections at 
the village or local level, you might see incipient democracy 
that you will not see at higher levels of government.
    Mr. Craner. And that is why both we and NDI have taken on 
this issue of governance; and, as it happens, we are both 
working very much at the local level so that the good examples 
percolate up and they percolate across the country.
    Mr. Connolly. Do either you or NDI have a local government 
component actually dedicated to local government?
    Mr. Craner. Absolutely. We are currently operating in many 
countries. Colombia is our oldest program. Jordan. We just 
started a program like that in Moldova. We have a similar 
program in Georgia. We have a similar program I am going to see 
next week in Berbera, Kenya.
    Mr. Connolly. Do you believe USAID, which is really the 
source of funding, adequately funds the local government 
initiatives we are trying to undertake?
    Mr. Craner. I think perhaps more than adequately. And I 
think there is a missing element in their programs. Their 
programs are very much focused on service delivery. Are the 
lights working in the streets, is the garbage being collected, 
all of which is important to the people in the cities or 
villages they think, but they don't really know. They assume 
that those are the things that are important.
    It is kind of like in Afghanistan. When we started, we 
would pull up to a village and say, ``Hey, I bet you need a 
health clinic,'' when what they really needed was a well.
    The missing component is the political issue. It is putting 
the people in the village together with the providers so they 
can say, ``We don't need a health clinic. We need a school or 
we need a well dug.'' That is what would make a difference to 
us in this town.
    Mr. Connolly. Ms. Windsor, you were nodding your head in 
affirmation.
    Ms. Windsor. Yes. I think in fact the local level--how you 
define the local level is important. Especially, is your 
objective more democracy than human rights? I think there are 
plenty of programs that are ensuring better citizen involvement 
in different processes, et cetera, building up and training 
government officials, increasing budget transparency. I think 
that sometimes the local government programs, though, are 
looked at apolitically. And in the end, whether it is local 
government or judicial systems or parliaments or other aspects, 
this is a political system that we are interfacing with; and 
sometimes I think that USAID can be a little cut and dried in 
terms of looking at what local government means and takes the 
politics out of local government.
    Mr. Connolly. Well, it is inherently political because 
there is a contract. That is, if I am collecting your taxes, 
however well or badly, the contract is that I will provide 
services to you, however well or badly. It is a fairly 
fundamental principle, but it is a real essential building 
block of democratization anywhere.
    Mr. Carothers, in the 19 seconds I have left, do you want 
to comment?
    Mr. Carothers. I think what Lorne and Jennifer have 
described is really an evolution over the last 20 years. IRI 
and NDI may have started out in the 1980s with a very national 
focus. They had less money and less experience, but there has 
been a real evolution over time. In places like Russia, even 
though it is a big country, IRI went very local for awhile. I 
don't think that is any longer a problem.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Smith from New Jersey.
    Mr. Smith. Thank you, Mr. Chairman.
    To Secretary Craner, first, let me say I appreciate you 
pointing out that human rights laws have been established 
repeatedly over the objections of administrations, be that 
Democrat or Republican. And you cited the Religious Freedom 
Act. I held all of the hearings here. The Clinton 
administration was against it. He ended up signing it. They 
were against the Trafficking Victims Protection Act. He ended 
up signing it. And the Bush administration was against the 
special envoy and the office on anti-Semitism, we passed it, he 
signed it, and that was the Bush administration.
    So from my point of view, there is a bad habit that has to 
be broken; and we are seeing it again with the International 
Megan's Law which we have passed out of this committee. I am 
very concerned that this administration is going to try to kill 
it. I am worried about the International Child Abduction and 
Prevention Act, which is not getting any traction at the 
Department, even though there are 2,800 American children who 
have been kidnapped, and 1,800 or so American parents left 
behind.
    And then there is the Global Online Freedom Act, which was 
opposed by the Bush administration, and I believe will be 
opposed by the Obama administration as well. That, too, is very 
clear and non-ambiguous; and at least two of your organizations 
have been outstanding in helping us write it and now support 
it. I am afraid that legislation is going to die as well.
    Two quick issues with regard to China, which I believe in 
scope and pervasiveness is the most egregious violator of human 
rights on earth. I was very disappointed when Mrs. Clinton said 
we will not allow human rights to interfere with climate change 
and with settling our debt. We know a number of labor 
activists, more than before, are being arrested and 
incarcerated, beaten even, for asking for fundamental ILO 
protections. It is no coincidence in my view that the Cairo 
speech by the President was made during the anniversary of 
Tiananmen Square.
    And one issue that absolutely is the worst violation of 
human rights in the world, is the one child per couple policy. 
We are now giving money to at least two organizations, Marie 
Stopes International and the U.N. Population Fund, even though 
huge numbers of women are being violated as never before.
    I would ask unanimous consent that the op-ed by Chai Ling, 
the leader of the human rights Tiananmen Square student 
movement called, ``China's One Child Policy as Brutal and 
Hypocritical as Ever,'' be included in the record. She points 
out there are 100 million girls missing because of the forced 
abortion policy. And also that there are some 30 to 40 million 
more boys than girls under the age of 20, and she puts that in 
perspective. That is equal to the entire young male population 
of the United States of the same age. Those girls are gone, 
killed by gendercide.
    Recently, we had a hearing and a woman named Wujian 
testified, and this gives an indication just how horrific this 
policy is and why so many women are committing suicide in 
China. Five hundred women per day commit suicide, according to 
WHO.
    Wujian said:

        ``Then I was put into a room with several other moms. 
        The room was full of moms who had just gone through a 
        forced abortion. Some moms were crying, some moms were 
        mourning, some moms were screaming, and one mom was 
        rolling on the floor in unbearable pain. Then I kept 
        saying to her [the abortionist], `. . . how could you 
        become a killer by killing people every day?. . .' ''

    Then she talks about how when they put the big, long needle 
into the head of the baby, the baby died.

        ``At the moment, it was the end of the world for me and 
        I felt even time had stopped. Since it did not come out 
        as expected, they decided to cut the baby into pieces 
        in my womb with scissors and then suck it out with a 
        special machine. I did not have any time to think as 
        this most horrifying surgery began by force. I could 
        hear the sound of the scissors, cutting the body of my 
        baby in the womb.''

She went on to say,

        ``Eventually the journey in hell, the surgery, was 
        finished; and one nurse showed me part of the bloody 
        foot with her tweezers. Through my tears, the picture 
        of the bloody foot was engraved into my eyes and into 
        my heart, and so clearly I could see the small five 
        bloody toes.''

    This is the one child per couple policy. I say to President 
Obama, silence in the face of this barbaric Chinese Government 
behavior is not an option.
    Why have we not spoken out on this issue? And I mean in a 
way that is meaningful, not in some passing reference? This is 
the worst violation in my opinion of women ever.
    Finally, my friend and colleague, Mr. Payne, talked about 
Kenya. Kenya is a pro-life country. Virtually every poll shows 
massive majorities believe in the sanctity and dignity of 
unborn life, and yet the U.S. Government has contributed at 
least $11 million in the constitutional rewrite. We have asked, 
Mrs. Ros-Lehtinen and I and another Member of Congress, that 
the IG investigate this wrongful use, this violation of the 
Siljander amendment, in promoting this pro-abortion 
constitution.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you very much, Mr. Chairman.
    The United States provides certain types of assistance to 
countries with repressive governments like China, Cuba, 
Vietnam, and so forth; and usually the assistance is for 
nongovernmental organizations that promote democracy and human 
rights or for activities in such areas as environmental 
protection and disease control, which are important to the 
health and safety of American citizens. But do you believe that 
such assistance programs should be terminated in countries with 
poor records on human rights and democracy?
    Mr. Craner. There is a fundamental dilemma here, and I 
faced this in Uzbekistan when I was in government. The Uzbek 
Government is about as nasty a group of people as you can find, 
and there are many of that description.
    We, by dint of 9/11, were close to being engaged to working 
with the Uzbek Government. There was a time when we thought we 
were making progress from a very, very low base in terms of how 
they treated people. This is a pretty nasty group in terms of 
how they were killing people in prisons, that kind of thing. 
And then Andijan happened, which was the big massacre out in 
eastern Uzbekistan and all U.S. relationships with Uzbekistan 
essentially ended. Does that help the people in Uzbekistan that 
we ended a relationship over something awful that happened?
    I would contend, and I know that Congress has addressed 
itself to this on occasion, that in countries where we have a 
complete embargo that human rights and democracy work be 
allowed to continue. I think especially of Serbia in the late 
1990s, where Congress faced that dilemma and made that 
decision. So I would make the case that in very, very limited 
circumstances, very, very narrow types of programming should be 
allowed to continue in those countries. I don't find it morally 
satisfying to not have a relationship and not be able to help.
    Ms. Windsor. However, I just want to reiterate my point 
that signing MOUs with the Government of China to allow them to 
dictate what kind of assistance we provide, which has recently 
been the case with USAID's program China, is not the way to go.
    I would also say that it is not the democracy and human 
rights assistance that we should be worried about in many of 
these countries. That is a very--it is a pittance in terms of 
overall relationship and message that these governments are 
getting from the U.S. Government in terms of what is really 
important. That is true in Uzbekistan, where we are now 
apparently relooking at restoring military relationships. 
China, Vietnam, whether we assist democracy and human rights 
groups under extremely narrow circumstances is not the problem 
there.
    Mr. Scott. Let me ask you about Africa. We have a serious 
human rights violation problem, particularly in the heart of 
Africa, in places like Rwanda and especially in the Congo in a 
place called Goma, where I was and went.
    I want to ask you if you could comment on what should be 
done. The number one physical ailment and treatment in the 
hospitals of Goma are not tuberculosis, it is not stroke or 
heart disease or high blood pressure, it is violation of sexual 
cruelty to women. That is the number one treatment, not rape 
but sexual violence. How deeply are you aware of this and what 
would be your advice as to how we can use our resources to get 
in there and help or what are we doing?
    Ms. Massimino. Well, as you know, if you have been there, 
it is rampant and a huge problem. And I think, from our 
perspective, we are not working on this directly right now but 
have spoken to groups on the ground who are struggling to deal 
with this overwhelming problem. Like many of the problems we 
are talking about today, there are complex causes, and it needs 
to be tackled from a number of different avenues.
    Mr. Scott. What would you say are the causes? Can you just 
expand on the complexity of the causes?
    Ms. Massimino. I can't put myself out there as an expert, 
but the legacy of the wartime abuses is a serious problem 
there. It created a culture in which this kind of thing is 
permitted, and so there is that aspect of the problem that has 
to be dealt with in addition to dealing with the victims after 
the fact, prevention.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arizona, Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman.
    Ms. Windsor, Freedom House has documented very well the 
human rights abuses in Cuba that have gone on, yet Freedom 
House still advocates the lifting of the travel ban to allow 
Americans to travel. Do you want to talk about that for a 
minute?
    Ms. Windsor. Yes. We did it. It was our first act, 
actually, when the Obama administration first came into office. 
We think that the lifting on the ban on travel to Cuba makes 
sense. It will enable the free flow of information to Cuban 
citizens, it will increase ideas of liberty, and it will be 
harder for the Cuban Government to contain that information, 
which they are able to do.
    I also noted that the U.S. ban on Americans to Cuba will 
reaffirm the rights of Americans to travel wherever they want. 
We are allowed to travel to any of these other countries that 
have greater sanctions. However, we don't think any policy 
changes--any additional policy changes--we need to be in 
consultation with the democracy and human rights groups within 
Cuba and make sure that anything we do is supported by them and 
think that they will increase freedom and liberty on the 
island.
    Mr. Flake. Thank you for that thoughtful position.
    I am holding here a letter to the House of Representatives 
from members of Cuban civil society signed by 74 individuals, 
people representing civil rights society there, clerics, 
intellectuals, artists, political prisoners. Across the board, 
they make the argument that we share the opinion that the 
isolation of the people of Cuba benefits the most inflexible 
interests of its government. It would seem across the board--
and I know you will find a dissident here or there who will 
say, no, we should continue with the status quo, but the status 
quo of 50 years has gotten us very little.
    Mr. Craner, you mentioned we shouldn't put a hold on 
democracy programs just because we have a problem with Mr. 
Gross being held and mentioned that we have democracy programs 
continuing in Burma or Zimbabwe, and we also allow Americans to 
travel to those countries. We don't have that prohibition. Do 
you feel that prohibition is still warranted in this case?
    Mr. Craner. I have to tell you, I looked at this from a 
little bit of experience, not with Cuba but another country 
called Vietnam. I used to work for Senator McCain, as you may 
know. I thought it was a smart thing in the 1980s and even into 
the first Bush administration, Bush 41, to lift a lot of 
sanctions against Vietnam, to allow businesses in and establish 
diplomatic relations, et cetera, because I thought it would 
help on human rights and democracy.
    I am afraid that I was wrong. I don't think there has been 
any improvement in human rights and democracy in Vietnam. The 
idea that if you let businesses in, that folks from IBM or 
Exxon are going to proselytize for democracy, I think they are 
too busy making money.
    Mr. Flake. Individuals to travel, you certainly wouldn't 
advocate reimposing a travel ban, or imposing a travel ban on 
Vietnam?
    Mr. Craner. I think--I don't know there ever was a travel 
ban on Vietnam, but in the case of Cuba, this has been an 
administration very dedicated to engagement. And I think they 
are coming to the--in some countries at least--they are coming 
to the end of their tether on what engagement has produced. So 
absent some willingness on the part of the Cubans to move, I 
don't know why we would.
    Mr. Flake. I have always held the position, most in 
Congress do, I think, this is in our self-interest. We have 
tried to outguess, second guess the Cuban administration as to 
what they want. I have never been convinced that they really 
want the travel ban lifted. I think we should disregard what we 
think that they want and do what we know is in our interest, 
and it is simply not in our interest to deny Americans the 
ability to make that choice themselves as to whether or not 
they will travel.
    I commend those in USAID and elsewhere in government who 
have tried to implement programs that will help those Cubans 
who need it badly. I think we ought to allow Americans and have 
simply greater contact, and things will happen that we simply 
don't know. Cuba can impose their travel ban. If we lift ours, 
they will probably impose some kind of ban. But that should be 
their province, not ours.
    I thank Freedom House and others, and I encourage all of 
you to encourage travel and trade.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ambassador Watson.
    Ms. Watson. I want to thank all of the witnesses.
    Having been an Ambassador myself, I have to agree with my 
colleague over on the other side, Mr. Flake, because I do think 
that the more contact Americans have with the Cuban people on 
the ground--I think under new leadership there, however, it 
could still be convinced by the brother to hold onto policies. 
But having discussions with Fidel Castro, I feel we could make 
some headway if we relieve the travel ban and let people go 
into Cuba by their own need to whatever, tour, to talk with the 
Cubans themselves.
    I had an opportunity to be on the campus on the medical 
school there--and I am going to say this real quickly because I 
want to go to my points--but I went up to students getting off 
buses, and I recognized them as being Americans, African 
Americans, and I asked them, what does this experience mean to 
you? And they said, a quality medical education, virtually 
free, and I am looking forward to devoting 2 years of my 
professional life, delivering health care services in 
underdeveloped countries.
    If you talk to the people who are there, they are not 
looking at the politics, but they are looking at how they can 
benefit from this program. Some of the best health care--and I 
have been attacked because I have said this--some of the best 
health care I have seen has been in Cuba.
    Now let me get to something that I think I heard Mr. 
Carothers or Mr. Craner say, either one. It was about Haiti. I 
understand from President Clinton, the envoy to Haiti, that he 
had worked out a development plan with President Preval prior 
to the earthquake short term, mid term, and long term; and this 
was our assistance to Haiti to start developing their country.
    Either one of you, if you can respond, I would appreciate 
it. I thought I heard somebody refer to development in Haiti.
    Mr. Carothers. I did refer. My point, Congresswoman, was 
that now that we are in a phase of giving extensive assistance 
to Haiti again--and it kind of waxes and wanes in American 
policy--we should take advantage of that moment to address 
fundamental issues of building the Haitian state and building a 
democratic state. Because Haiti's calamities will simply occur 
and reoccur if we don't get to the essential problem that they 
have never built a genuine relationship between their state and 
their society. And so we want to be as helpful as possible as 
quickly as possible, but simply pouring reconstruction money 
onto a state that basically doesn't work isn't going to get to 
the fundamental roots of the problem.
    Ms. Watson. And I would like this verified. And maybe, Mr. 
Chairman, we can send a letter to the special envoy, President 
Clinton. Because he then told us that he had the President sign 
off on a development plan which included many points in the 
following: Developing a strong middle class. And I understand 
since 1751 that resources were held at the top and they never 
went down and so the Haitian people have learned to just be 
survivors at the lowest level and I understand in an MOU that 
was signed that some of this was included. So maybe we as a 
committee could get some answers as to what was contained in 
the development plan.
    Chairman Berman. On the issue of part of our resources on 
governance?
    Ms. Watson. How best to aid the Haitian people in terms of 
developing their country on a more democratic basis, in terms 
of developing their infrastructure, and in terms of jobs, and 
in terms--I see my time is up, but you get the gist.
    Chairman Berman. I do. We will follow up with you to pursue 
that. The time of the gentlelady has expired.
    The gentlelady from California, Ms. Woolsey, is recognized 
for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Secretaries Clinton and Gates have both talked about 
promoting the idea of smart security. I actually have 
legislation that promotes a smarter approach to reaching peace 
around the world with nations we might be having arguments 
with. Because it is absolutely no longer acceptable that our 
foreign policy would be based on preemptive strikes and 
military might and that we would think that if another 
country's approach to democracy or human rights in a real 
effort don't look like ours, so then it is our job to bully 
them into submission, that has to stop. It is not working. We 
know that.
    So my question to you--and I guess I am just telling you 
that--since we need to prevent discord and we need to build 
cooperation, we absolutely must worldwide, are there states 
where in your opinion it isn't possible to start the dialogue 
and make inroads?
    I don't know where to start. Mr. Craner.
    Mr. Craner. You mean start the dialogue and make inroads on 
this issue or in general?
    Ms. Woolsey. On this issue.
    Mr. Craner. I think there are some countries that simply 
aren't interested, where the leaders are not interested. I 
think if we tried, and I think we do try to talk to the North 
Koreans on this issue, we are not going to get much of a 
response. I think the people are more interested, but it is 
very difficult for us to get out and talk to the people. And it 
is also in that kind of country such a repressive environment 
that it is very, very--as soon as somebody lifts their head and 
says something that is coming out of their head and not ours, 
they go to prison.
    Ms. Woolsey. What are you thinking about Iran?
    Mr. Craner. I think we saw it in the demonstrations last 
year--there is a tiredness with the regime. If you go back to 
1979, people clearly thought they had an American-imposed 
authoritarian government, and to an extent they were right. I 
think they have gotten tired these 30-some years later of what 
they brought themselves and how for many of them it did not 
live up to their expectations in 1979. I think that is why 
Iran--amongst the citizenry, not the government, but amongst 
the citizenry--may be the most pro-American and pro-democratic 
country in the Middle East, because they are tired of living 
under their rulers.
    Ms. Woolsey. Do any of you have any opinions of the Hamas 
leadership of the Palestinians? Would they be willing to work?
    Mr. Craner. In terms of these issues?
    Ms. Woolsey. Yes.
    Mr. Craner. Again, that is an organization that is willing 
to take advantage of the forms and methods of democracy but not 
to subscribe to the substance of democracy. They are happy to 
use elections to get into power. They are not particularly 
interested in democratic practices thereafter.
    Ms. Woolsey. Does anybody have an opinion on how we can 
convince naysayers that there is a way to engage that is 
smarter than military and bombs and guns?
    Ms. Massimino. Absolutely. I think that is in large part 
what we are talking about here today, is how to leverage money 
and diplomacy, including nonsecurity assistance, and the need 
for a multiplicity of actors to be involved here. In a lot of 
the countries that we have been talking about, it is vitally 
important that the U.S. be engaged.
    Now engagement could be engagement with our real allies in 
that country, which are not the government. They are people who 
are advancing the ideals of human rights and democracy that we 
share, and we have to understand what it is that they need, how 
to be sophisticated about that kind of engagement so that we 
are not undermining them, but we don't throw up our hands and 
say we can't measure achieving any results so we should just 
butt out or it is too complicated. That is why this is such a 
tough job, but it is vital.
    I think the President laid it out in the national security 
strategy how these things have to be so closely aligned. So we 
have to find different ways of doing it, and it is not just one 
way or a bilateral switch.
    Chairman Berman. The time of the gentlelady has expired.
    The gentlelady from California, Ms. Lee, is recognized for 
5 minutes.
    Ms. Lee. Thank you very much.
    Welcome. Let me ask a couple of questions that I have been 
dying to ask.
    I wanted to find out, first of all, in promoting democracy 
abroad, do we recognize that democracy may emerge differently 
from country to country and may not necessarily be an American 
form of democracy? And, if so, how do we have a standard for 
democracy assistance if in fact we allow for those differences? 
If we don't, then why not?
    Secondly, during the last administration, I continually 
warned Secretary of State Rice about pushing for elections as 
it relates to the Palestinian people in terms of what was 
taking place in the Middle East, and I often said be careful 
what you ask for. We know the history. They pushed, pushed, 
pushed, and Hamas was elected. At what point should we make 
decisions about pushing, pushing, pushing for elections, 
recognizing that those elections may or may not be in the 
United States' best interests based on administration policy? 
And when do we not push, push, push where it could be 
detrimental to what the United States feels is in their best 
interests? Because, obviously, people voted for Hamas for a 
variety of reasons; and of course we know what has happened and 
that has not been in Israel's or the United States' best 
interests. But we pushed, pushed, pushed; and so it is be 
careful what you ask for. How do we balance that off and when 
do we know not to push, push, push?
    Chairman Berman. Mr. Carothers.
    Mr. Carothers. Thank you for the question.
    There are certain underlying principles in democracy that 
are common to all democracies, but many of the specific forms 
are different, and so when we go out in the world to promote 
democracy, we have to be consistent and true to these 
underlying principles but willing to accept that it is going to 
take different forms in different places.
    Recently, for example, the Ukraine had elections. The 
United States has been working to promote democracy in Ukraine 
for a long time. We clearly saw that probably one candidate 
would have been better for U.S. security interests than another 
because they might have been less pro-Russian and maybe pro-
American. But the United States promoted democracy in the 
Ukraine, and the leader emerged who might not have been our 
first choice, but we stuck to our principle and we promoted a 
system and not a particular candidate. That gives us credit in 
the world.
    I was with a group of visiting Russian delegates who were 
talking about the hypocrisies of American democracy promotion; 
and I said, would Russia be willing to support a process and 
not an outcome in the Ukraine? And the fact that we were 
willing to support a process and not a particular outcome makes 
us look good in the world.
    But with respect to pushing, pushing, pushing on elections, 
in 98 percent of cases countries' election schedules are set in 
their Constitution; and it really isn't up to us. Palestine had 
had elections before. Yassar Arafat was elected before. In 
almost all cases in the world, it really isn't up to us to 
decide whether or not a country has an election. It is up to us 
to decide whether or not we can help make that a better 
election.
    And so I think the dilemma about or the idea that we are 
out there causing all these elections in the world is a little 
bit of a red herring and the fact that we focus so much on the 
case of Hamas is because it is so exceptional. There have been 
surprisingly few cases in the last 25 years of elections that 
have really produced damaging results to American security. In 
99 of 100 cases, it is better if a country lets the system 
breathe, has elections, and continues with its constitutional 
schedule. So what we are really trying to push for is better 
elections. We are really not in the driver's seat about whether 
elections. And so the push, push, pushing on elections really 
is or at least should be let's push on better elections.
    Ms. Lee. Do we accept the outcome then of all elections?
    Mr. Carothers. Yes.
    Mr. Craner. I think Tom explained it very, very well. 
Elections are occurring. They may not be very good elections. 
The Soviet Union used to have elections. The question is, what 
is the character of elections going to be? You can make the 
argument in the Palestinian case that there were supposed to 
have been elections sooner. Had those elections been held 
sooner, I think Hamas might not have won.
    I think it is also fair to consider in the outcome of 
elections that simply having had a fair election doesn't 
necessarily mean we are going to agree all the time on 
everything with the government that was elected. And so that 
needs to be brought into consideration. Simply because they 
were elected, it doesn't mean we have to like them.
    Ms. Lee. President Aristide was welcomed to be the duly 
elected President of Haiti, and our Government helped depose 
him.
    Chairman Berman. The time of the gentlelady, on that 
interesting last question, has expired.
    The gentleman from Minnesota, Mr. Ellison, is recognized 
for 5 minutes.
    Mr. Ellison. Thank you, Mr. Chairman.
    Would you like to respond to that Aristide question?
    Mr. Craner. There is a quote by Colin Powell that I think 
is worth looking up and talking to him about. He basically says 
that President Aristide, because of his misrule, brought this 
upon himself. So for somebody who was in office at the time who 
has an understanding of what we did or didn't view I think 
Colin Powell would be worth talking to.
    If I could go back to your question----
    Mr. Ellison. I don't have a question before you, sir.
    Could you respond on the way that our country responded to 
the issue in Honduras, when a duly elected President deposed? 
Would you like to respond on that one in terms of how it 
conforms to our policy of supporting elections and holding up 
the integrity of an election?
    Mr. Craner. I think this goes back to what I talked about 
before with Hamas, that there are governments that are elected 
on occasion which don't respect democratic processes after they 
come into office. And I don't think that we or the OAS or 
anybody else has a good enough policy that deals with this 
issue of what do you do when somebody who is not democratic is 
elected in a democratic process. And I think that the 
administration came to see that that was an issue in Honduras.
    This time last year, or basically when the issue started, 
they were very staunch and very firm in favor of the deposed 
President; and I note that Secretary Clinton yesterday or the 
day before was at the OAS saying that they ought to readmit 
Honduras, considering the election that they just held on this.
    Mr. Ellison. Do you all have any thoughts on how the 
dynamics and timing of a process of elections over time--if a 
government as you described, a government is elected that 
doesn't subscribe to democratic principles that we would want 
them to, have we ever actually tried to let them rule and then 
seen over the course of a few elections whether or not the 
responsibility of governance pulls them into more amenable 
conduct?
    Ms. Windsor, you want to take a stab at that one?
    Ms. Windsor. I think we have let--certainly recently we 
have let a number of countries sort of try that approach. So, 
in Venezuela, it hasn't actually worked so well, at least for 
the Venezuelan human rights activists and civil society groups 
that are really being squeezed. So we don't have--we shouldn't 
be in the position of trying to remove governments, but we can 
speak out for any government's, whether they were elected or 
not, misuse of their own populations; and I think we need to do 
that.
    Mr. Ellison. But I think they are separate issues, though. 
The fact is that--let me ask you the question this way. Does 
the responsibility of governance moderate the more pernicious 
aspects of what a particular government may have done if they 
were not allowed to bear the burden of governance? Anybody?
    Mr. Craner. It may or it may not. It depends whether while 
they are in office they are saying, oh, let's not have another 
election; or, gee, I think I will extend my term; or let's get 
rid of the judiciary; or let's go after civil society. If they 
are hemmed in by these elements of democracy that you see in 
democracies from Asia to the Middle East to Latin America, then 
they might say, hmm, I think I am going to have to moderate my 
behavior. Because if I don't, I am not going to be in office 
any more. But if they don't have to worry about that, they 
don't have to moderate their behavior.
    Mr. Ellison. And, of course, they don't do it in a vacuum. 
As Ms. Windsor pointed out, people domestically and in the 
international community can raise issues around civil rights 
and should.
    Ms. Massimino.
    Ms. Massimino. Just very briefly, I think it is important 
to remember that while democracy can emerge in different 
contexts and it may look different in different countries and 
all of that, there are universal standards of human rights that 
all governments, almost all governments have agreed to, and 
these commitments, respect for those commitments helps set the 
stage for real democracy and for elections that actually 
represent the will of the people, and then they are the 
standards on which any government, whether it came into power 
through elections or not, should be judged.
    So I think, just getting back to the focus of the hearing, 
that it is really important that we not lose sight of that 
aspect of our goals for foreign aid, that we need to focus on 
that, too, in addition to the democracy part.
    Mr. Ellison. I think I am out of time.
    Chairman Berman. I think the time of the gentleman has 
expired.
    But if the gentleman wants, I am prepared to have a second 
round, at least for myself and I think, therefore, anybody else 
who wants to.
    Mr. Ellison. I actually do.
    Chairman Berman. We have to go back. The test is how much 
do you want a second round?
    I will yield myself 5 minutes.
    Two of you, I gather, one in State and one USAID, were in 
the government for significant parts of your careers. I am 
curious if it has been long enough since you have been gone 
that you feel comfortable talking about the tension between 
what you were supposed to be pushing and doing, and your own 
sense of what you were supposed to be pushing and doing came 
from those bureaus that were focused more on, and people and 
higher ups, who were focused more on the nature of the 
bilateral relationship, a very specific or a range of issues in 
that bilateral relationship where what you might be pushing to 
do would create tensions that they didn't want to have to see 
come up, and sort of tests of how some of that should get 
resolved, and others on the panel who would want to join in as 
well.
    Egypt is a fascinating example. But other issues raised 
here, Iran, nuclear weapons, the consequences of the election 1 
year ago and all that has happened, the preexisting limitations 
on human rights. I am less interested in this case in the 
specifics than sort of a construct for maintaining our 
commitments in this area and pushing what we want to push in 
this area and the struggles people in your roles face.
    Ms. Windsor. Well, anybody that knows me knows that I am 
always comfortable complaining--even when I was within the U.S. 
Government I was interested in complaining about behaviors that 
I thought were not very helpful. And certainly being an NGO 
gives you a lot more freedom and opportunity to criticize those 
inside. So I do want to say that within USAID and State 
Department there are people who are working on democracy and 
human rights issues, and oftentimes they are the ones that are 
pitted against those that are very, very focused on the 
bilateral relationships, and I completely respect them.
    I just think that the balance is way off in terms of the 
resources, the human resources, so that democracy and human 
rights can actually get on the table at important discussions 
and have a chance of being heard. And I think that is as true 
today as it was--in fact, I think it is probably more true 
today that democracy and human rights groups are not--voices 
within the government are not at the table as much they should 
be.
    I will say something sort of provocative. State Department 
and USAID is all focused on the country unit. Whether the 
Ambassador or the USAID mission director, field missions, et 
cetera, you get this kind of everything should be pushed down 
to that level. Well, the nature of being an Ambassador or 
mission director is that you are wanting to improve the 
relationship with that country, and there is not enough----
    Chairman Berman. Country as defined by government?
    Ms. Windsor. Exactly. And I think there is not enough--this 
is what the ADVANCE Democracy Act was about and efforts to try 
to train and give incentives to USAID and State Department 
officers, that it is in their interest that they see it as part 
of the larger bilateral relationship, that is in their interest 
to actually care about democracy and human rights. And the most 
recent example is Kyrgyzstan. The embassy managed to put itself 
against democracy and human rights.
    So I think that there has to be very strong central 
pressure from inside of both USAID and State on embassies and 
missions that they have to include this in their definition of 
what makes a good bilateral relationship. And that is 
incomplete. So we have certain mission directors and certain 
Ambassadors that are great on these issues, and then we have 
others who are not. So if you have an across-the-board 
approach, for instance in USAID, that the mission always knows 
best, you are going to get programs that actually undermine 
democracy and human rights. And I think that that should not 
happen.
    Chairman Berman. Anybody else want--I have just used all my 
time.
    I yield 5 minutes to the ranking member.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    Some may have a revisionist history--a revisionist view of 
recent history about what went on in Honduras. Apparently, some 
may ascribe to the Benjamin Franklin quote that said, ``Never 
let a gang of brutal facts get in the way of a beautiful 
theory.'' What is the beautiful theory? That what happened in 
Honduras was a coup d'etat. Love to say that.
    The brutal facts are that Manuel Zelaya, the President of 
Honduras, put on the ballot--printed on the ballots that were 
about to be voted on by the public--a question asking the 
public what their thoughts were on extending the Presidential 
term. The problem is that, according to the Honduran 
Constitution, putting that question on a ballot is in and of 
itself a violation of that Constitution. So the Supreme Court 
of Honduras ruled against Manuel Zelaya for committing this 
illegal act. Then the Human Rights Ombudsman of Honduras also 
ruled against Manuel Zelaya. Then the Congress of Honduras, 
both parties, the opposition and Zelaya's party, itself, voted 
that, yes, he had violated the Constitution. Finally, civil 
society organizations also agreed that the actions taken by 
Zelaya were in violation of the Constitution.
    While the United States was involved in doing all the wrong 
things there, the Honduran people and the Honduran institutions 
of government were all in agreement. The Supreme Court decided 
it. The Congress decided it. The civil organizations all signed 
documents saying that this is wrong. And so he was arrested 
pursuant to a legal warrant. He should not have been taken out 
of the country, I agree; and all of the parties have said it 
was wrong to do that. He should have been judged. He should 
have been tried, and he would have been found guilty, because 
the law was clear. He violated the Constitution.
    So Zelaya was trying to extend his term illegally by 
pushing an unlawful referendum to change the Honduran 
Constitution, which clearly limits to one term the time in 
office of the President. Those are the facts. And so, after all 
of these decisions, Zelaya was removed from power, according to 
the Constitution, according to the Congress, according to the 
rule of law.
    Now, we have got a very active U.S. Ambassador there in 
Honduras who is going to try to do everything within his power 
to continue the failed policy of this administration to say 
that what happened there was an illegal act, never mind what 
the Supreme Court said, never mind what the Honduran Congress 
said, never mind that the Honduran people celebrated a free, 
fair, transparent, uncorrupted election that was hailed by all 
parties as an example of a terrific election process in 
Honduras. All applauded. Lobo was sworn in as President, but 
the United States administration, the Obama administration, and 
the Secretary of State--and our activist U.S. Ambassador in 
Honduras who continues to try to pressure all of the parties 
because he is obsessed with this--to try to call it a coup 
d'etat and continue on with this problem.
    The Honduran people have moved on. The Supreme Court has 
moved on. The Honduran Congress has moved on. Some have not 
moved on, and they want to call this a coup d'etat. They want 
to continue, continue, continue, even though we have a new 
democratic government, applauded by all the international 
groups that say this was a clear and fair election.
    Let's not change the facts just to fit this beautiful 
theory. It was not a coup d'etat. The Honduran people have 
moved on. They would like recognition by the international 
community. Slowly, we are restoring the visas that we should 
never have taken away from them in the first place.
    We are still punishing those who were with the interim 
government, including Mr. Micheletti. Those people are still 
being punished. We withdrew USAID, going against our own 
interests, including U.S. anti-narcotics efforts. We held that 
country and its people as prisoners. They could not escape. 
They had no visas.
    And so some of us aren't being fooled. If, by contrast, our 
Ambassador in Nicaragua rightfully highlights Ortega's efforts 
to trump the judiciary and Constitution, let's look at what 
Hugo Chavez is doing. Let's look at what Daniel Ortega is 
doing. Get over Honduras. The Honduran people are very happy 
with their duly elected democratic government. This was not a 
coup d'etat.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman <greek-l>who  deg.from Minnesota.
    Mr. Ellison. Just a few more questions about your democracy 
work.
    Now I actually agree with the work you are doing and 
applaud you for doing it. Only problem is I think as a country 
we have got to really build some real resolve to be consistent 
with it when we do it. And I do think people around the world, 
when we say we are for democracy, they take it seriously. They 
try to take full advantage of what we say we are about; and we 
need to be ready to deal with that, regardless of what the 
consequences of that are. At the same time, never giving up, as 
Ms. Windsor pointed out, our obligation and responsibility to 
call people to account when they veer from agreed-upon 
constitutional norms. But I don't think we should ever stop 
doing democracy promotion.
    Let me just ask this question in that regard. How do we 
balance these two things, of promoting democracy and then, when 
it doesn't go the way we want, making sure that we don't 
undermine the democracy that we helped to promote?
    Mr. Carothers. I think the key is to have a set of 
democratic support policies and programs that really represent 
a wide range of institutions in the country and processes. 
Democracy promotion, despite what comes up again and again, 
really isn't mostly about elections. Elections can be a 
capstone or a cornerstone of a democratic process, but it is 
really about a much, much wider range of things, whether it is 
media systems, local government working with parliaments, 
working with human rights organizations, and so forth. So the 
idea that we are caught in the headlights like a deer if 
somebody gets elected who we are not entirely happy about, we 
have a whole range of things that we might be doing in the 
country, supporting, as Lorne said, institutions that 
counterbalance power and so forth. So I think if we have a 
properly broad conception, we will be in better shape.
    And I would like to take advantage of this to say one thing 
also to the chairman. If you try to understand what results can 
we have, I am still--in a sense stuck in my throat is that 
quote from the senior State Department official about tangible 
results. Because maybe the person meant transformative results. 
But let's just pause for a moment to think about the fact that 
the United States is spending $2\1/2\ billion year on 
democracies. Wow. That is a lot of money. What can $2\1/2\ 
billion buy you here in the United States? Well, widening the 
Wilson bridge costs $2\1/2\ billion.
    So we sit down and we spend a certain amount of money in 
100 countries around the world. Is it realistic to hope to 
transform 100 countries' political direction with the amount of 
money it takes to widen one bridge between Virginia and the 
District of Columbia?
    So we need to have a sense of proportion about what we are 
doing and what we expect from it in that this money is 
valuable. And people like Lorne and Jennifer and employees of 
their organizations, they get up every morning; and I don't 
think they do that day in, day out, week in, week out, month 
in, month out, year in, year out, for rather modest salaries, I 
must say, if they weren't producing something tangible.
    Are we taking this money and transforming the world? No, we 
are not. Would it be realistic to expect the money for one 
bridge to go out and change 100 countries' political destiny? I 
don't think so.
    Mr. Ellison. Let me follow up with you on that one. What do 
we hope to achieve over time? Over time, do we expect--
sometimes you can't look at one country during one election 
cycle and say, well, we have done our thing. But if you look at 
it in a region and you look at it over time, what do we hope to 
see in Central Asia if we keep this up?
    Mr. Carothers. You hope to see in a society nucleuses of 
people who are--who believe in something, who are working for 
positive change and feel, first, a sense of moral support. 
Second, they feel the ability to learn things that are coming 
from abroad from those who might have the experience. Third, 
they might have some actual resources from us to do what they 
want to do.
    So what you are trying to do is inject and help inject some 
elements into the society that we are working for positive 
change. And you cannot travel to most countries in the world 
without meeting dozens, hundreds, thousands of people who have 
been affected by these programs and who believe they are better 
actors, whether they are in government or out of government, 
with those basic principles. And it takes a long time. It takes 
a lot of different people.
    Mr. Ellison. I only got 40 seconds. Sorry about that.
    Could you talk about what you guys do in a specialized way 
to help women and minorities be a part of the election process?
    Mr. Craner. We have come to have a great focus on that. We 
used to think it was important to put women in the room with 
men to train them. We now understand that training separately 
is much better. Because, frankly, they are reluctant sometimes 
to speak up.
    What we have done is, (A) try and persuade party leaders, 
usually the guys, to bring women into the political parties as 
candidates, often making a self-interest argument--you are 
missing half the vote here if you don't do this--to ensure that 
when they bring them in they are not just symbols, and then (B) 
work with the women who may get elected to ensure they are the 
best candidates and officeholders as possible.
    Chairman Berman. Time of the gentleman has expired.
    The gentleman from California. The gentleman--he hasn't 
done the first round. You haven't done the second round.
    Mr. Sherman. Thank you.
    Chairman Berman. The gentleman from California.
    Mr. Sherman. Much has been made of the Minerals Management 
Service having a conflict of interest because it both collects 
the revenue and imposes the rules. There is also an 
institutional conflict of influence at State. On the one hand, 
it is their job to conduct diplomacy with every country with 
whom we have relations, including those ruled by tyrants. On 
the other hand, it is their job to promote democracy, something 
rarely appreciated by tyrants. And often I see that first 
objective getting in the way of the second.
    The best example of this was when Congress, over the 
objections of the administration, required that money be spent 
for democracy programs in Libya. The Ambassador to Libya and 
much of the State Department thought that that was at least 
annoying; and they didn't want to just figure out a way to 
spend the money in an innocuous and ineffective manner, which 
would be their usual response. They decided to go one step 
further in their efforts to get along with Kadafi. Their plan 
was to give the money to Kadafi. And only with pressure from 
Congress did they decide that that is not what Congress had in 
mind when we thought that democracy should be promoted in 
Libya.
    At this point, I can't propose any structural change, 
because I think democracy programs benefit from the power they 
have from having a voice inside the State Department. But often 
it works the other way around.
    The first question I have--and I don't know who to address 
it to--is with regard to our efforts in Iran. There is a huge 
pro-democracy movement in Iran. As far as I can tell, that has 
nothing to do with anything we have done through our democracy 
programs.
    And one thing I have been calling on the government to do 
is to take the many radio shows and even TV shows created in 
Los Angeles and pay the pittance that it would cost to make 
sure that these shows were available on satellite in Iran. The 
institutional response has been pretty ugly. First, that means 
that money that could be spent on bureaucratic jobs is spent 
somewhere else. But, more importantly, it means that we would 
have 1,000 flowers that bloom and we wouldn't control the 
message.
    Can someone comment on whether getting these private-
sector-produced shows into Iran would be a good use of our Iran 
democracy funds?
    Ms. Windsor. Well, I can more generally say that the need 
for free flow of information, that is what the Iranians want. 
And they want to hear--they were a very engaged society with 
the outside world, and so they don't appreciate the current 
regime's attempts to isolate them.
    And in terms of whether we--Iran--I want to just talk 
about, if I could, some Iranians have absolutely been very 
clear that they don't want our help. But there are many 
Iranians that say that they do. And the help that they want 
primarily is not only to help the people that are in political 
prison and that have had to leave the country because there is 
such a crackdown, but they want the ability to connect with 
each other and with the outside world. And there were a number 
of efforts that the U.S. provided that helped that happen.
    Mr. Sherman. I appreciate that, and I want to squeeze in 
one more question for Lorne Craner, who is with the best 
organization in Washington that has the word Republican in its 
name.
    Mr. Craner, in your testimony, you stated that the role of 
the Foreign Assistance Bureau within the State Department needs 
to be examined. Could you explain how the Bureau came about and 
how it has changed and expand on that for us.
    Mr. Craner. Yes. I actually had a conversation about this 
with Secretary Rice, and I mentioned to her that I had tried 
for 3 years to get from USAID a list of its democracy projects 
around the world by country and that they have never been able 
to produce that. She said that is really interesting because, 
she said, I tried for the first 3 months I was here to get the 
same, and I couldn't get it. And we both were finally were 
given three legal-size sheets, single-spaced with a grid that 
showed----
    But, in the meantime, it had actually happened that USAID 
had had to go to the NGOs it was giving money to to say, ``What 
are you doing with the money? Because the Secretary wants to 
know what we are doing with the money.''
    So there was a good reason for F to start, which was not 
only did State not know what USAID was doing with its money, 
USAID didn't know what USAID was doing with its money. So there 
was a good reason for its start.
    Unfortunately, like many good ideas in the bureaucracy, it 
has kind of gone haywire; and you now have F deciding 
essentially how every foreign aid penny from this very, very 
small centralized group--how every foreign aid penny is going 
to be spent where and how it is going to be accounted for and 
how it is going to be monitored and evaluated; and that simply 
has added a layer of bureaucracy with no value at the State 
Department.
    Chairman Berman. The time of the gentleman has quite 
expired.
    The gentleman from New Jersey.
    Mr. Smith. Thank you, Mr. Chairman.
    Ileana Ros-Lehtinen and I were just speaking, and we both 
agree that the travel ban ought to be lifted by Fidel Castro. 
Because if you are a human rights activist or a democracy 
activist, you don't get out. And if we lift it unilaterally 
without any kind of linkage there will be a very perverse 
outcome.
    And, you know, Ambassador Watson talked a minute ago about 
the medical students and about the happy doctors that she met. 
Well, Dr. Oscar Bicet remains often in solitary confinement, an 
Afro-Cuban medical doctor, an OB/GYN and an outstanding human 
rights activist who got 25 years for advancing the cause of 
liberty and human rights.
    So lift the travel ban. I offered an amendment that would 
have done that back in the early part of this decade if and 
only if the political prisoners are released. And I think we 
ought to have that linkage, and we ought to be very clear about 
that.
    You might want to comment on that.
    On Belarus, I am meeting with Alexander Lebedko, a good 
friend and human rights activist. I am very concerned that the 
Belarus Democracy Act may be weakened by the administration. I 
know there is some talk of that. Your view on that.
    On Vietnam, thank you, Secretary Craner, for saying the 
engagement didn't work. As soon as the bilateral agreement was 
signed, there was an immediate demonstrable deterioration of 
human rights, and those who signed Bloc 8406 found themselves 
being hunted down. Religious freedom gains were immediately 
reversed. And I join the U.S. Commission on International 
Religious Freedom in saying we oppose CPC. Your views on that.
    On TIP, we will find out, Ms. Windsor, on Monday whether or 
not the clientitis that you spoke of again manifests inside the 
building and from our U.S. missions abroad.
    India ought to be on Tier 3; Vietnam absolutely for its 
labor trafficking; and China, one of the worst trafficking 
meccas in the world, ought to be on Tier 3; and I am very 
fearful politics will again rear its ugly head. Your views on 
that.
    And, finally, last week I was part of a launch by Chai Ling 
of a new initiative called All Girls Allowed. It is an effort 
to re-enfranchise the girl child in China, who has been 
targeted for extermination as a result of the one child per 
couple policy. Why, I would ask all of you, has the 
international community been so grossly indifferent and 
enabling, even, by groups like UNFPA? Where is CEDAW? Where is 
the Human Rights Council, which bashes Israel with 
predictability, unfortunately? Where is the genocide panel of 
experts at the U.N. and others while women and children, 
especially the girl child, is being, like I said, exterminated 
in China? Where are they?
    Chairman Berman. You have 2 minutes and 16 seconds.
    Mr. Craner. On Cuba, one might be able to cite reasons--I 
might not necessarily agree with them--to lift the travel bans. 
Human rights and democracy is not one of them. That is the 
bottom line. It may help businesses, it may help the hotels in 
Cuba, whatever, but human rights and democracy is not a good 
reason.
    On Belarus, the Democracy Act, it is being weakened. The 
Charge has taken in Minsk--one of five diplomats we still have 
left there--has taken upon himself to say that the character of 
assistance for the opposition should be changed and reduced.
    On Vietnam, if they are not making improvements, then 
absolutely CPC should be changed.
    On China, the Chinese are going to have the biggest problem 
of all with this, because it is creating huge social tensions 
in the country. You and I both know there is a lot of 
trafficking into China of women from abroad because there 
aren't enough women for all the guys to marry. And they have 
already got huge social tensions and economic tensions caused 
by our recession. This is going to be one big problem for them.
    Ms. Massimino. I could reinforce just on China, as you 
know, it took--just to get recognition here, it took an act of 
Congress to get the United States to recognize that victims of 
forced abortion are victims of persecution. Our laws on refugee 
status were not being interpreted even to recognize that that 
constitutes persecution. That is absurd.
    I think, obviously, China is a human rights disaster on so 
many levels. It is a complicated place. It is easy to condemn. 
It is very difficult to make progress.
    And I think one of the things, if I can just highlight for 
us, that structurally I was really concerned when--well, today 
in the Post it was announced, but we have known this, that the 
midterm review of the report of the Quadrennial Diplomacy and 
Development Review is not going to be made public.
    Many of us have been working on that for a while. What we 
do know is that there are 12 task forces working on this, and 
none of them seems to have anything to do with human rights. We 
hear that it is integrated throughout and all of that, but I 
think Congress really needs to ask some questions about this, 
and I think there ought to be a hearing on it as quickly as 
possible.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your courtesy; 
and I apologize to the witnesses for being delayed.
    I would be remiss not to say to you that one of the 
overriding crises is that of the BP oil spill which might need 
some comforting concepts of freedom, democracy, and otherwise. 
I come from the Gulf region, so thank you for your indulgence 
of my questions.
    I do want to say this is a very important hearing, and I 
think I am going to take a different vein. I was not here, so I 
don't know what the others have done so as well.
    There is a concept called allies, and it raises its head in 
a very large way. China is an ally or one that we built over 
the years. Afghanistan is an ally. We are working to make the 
continent of Africa allies, plural. And, of course, Iran has a 
different posture, but we have Iranian Americans. And here is 
my concern.
    When we talk about human rights and democracy assistance, 
it is what we overlook. For example, the good news is we had a 
hearing on the rights of women yesterday; and we understand the 
United Nations is in the midst of putting together a task force 
to develop a component or a department that is for women's 
rights that would have the leadership level of the Secretary 
General. But when we have allies, we tend to not be 
restrictive, not be demanding, not use the human rights clout; 
and part of is that some of these countries are independent and 
some of them we need them.
    So, for example, in Afghanistan, that government makes a 
lot of conversation about human rights and women's rights but 
continuously allows--because they are in a war, I guess, 
position--the abuses to continue. What do we do there? Because 
we are giving them dollars for governance, but we hear stories 
that women parliamentarians cannot travel back to their 
district for fear of loss of life.
    In Iran, for example, there is a resistance movement that 
we seem to characterize as terrorists are bad. And I don't 
understand why we can't find ways of working or collaborating 
or finding out more facts so that if there is a legitimate 
resistance movement, not by violence but by supporting 
opportunities for democracy and human rights.
    And so my confusion is, on how we use this assistance, is 
that we are blocked by way of our friendship and then when 
there are groups that are willing to take a risk, they get 
labeled. They are stigmatized. Maybe there is a basis for it. 
But I think we have got to find a way to really own up to how 
much we are committed--without violence, without a war, I don't 
want us to be in that posture--but to really be forceful, 
consistent on this question of promoting human rights and 
democracy.
    I would like you to go down the line. It looks like I have 
1.56 seconds. Thank you.
    Ms. Windsor. Let me just say that, while you can't get 
complete consistency absolutely, every government, no matter 
whether they are ally or adversaries, should be subject to the 
same universal standards that Elisa mentioned earlier.
    I will add to the list of allies where we ignore democracy 
and human rights concerns, that being Ethiopia. No one actually 
talks about Ethiopia, but it has really been--essentially, 
democracy and human rights has been ignored for the last--since 
this government came in power. And since 9/11, it has been--
they just had the worst possible elections, and there was 
really no U.S. statement at all or no U.S. effort to try to 
criticize them, because, of course, they play a very important 
role.
    Similarly, in Egypt, I think that we keep on saying that we 
are going to put democracy and human rights--we need the 
Egyptians to do certain things for us, but it makes us look 
hypocritical.
    Ms. Jackson Lee. Where is our push? Can I yield to Mr. 
Craner?
    Mr. Craner. Where is our push? I think the leadership from 
the Department is very, very important. This body does not 
confirm officials. The Senate does.
    But I can't tell you how important it is, as somebody who 
used to work in legislative affairs at the State Department and 
who worked again for Secretary Powell doing human rights, how 
important it is that you bring people up here.
    I once said to Marc Grossman, who was the Under Secretary 
of State--I had been at State a couple of months, my second 
time; and I said, ``I am finding that folks under 40, 45 get 
human rights, because we kind of grew up with it. But I am 
finding that people a little older don't get it.'' But I said 
then, ``Oddly, people who are the Assistant Secretaries and the 
Under Secretaries get it.'' And he looked at me like I was a 
fool, and he said, ``Lorne, they have to get confirmed, and 
they have to go up and testify at Congress.''
    Don't underestimate your role and value when witnesses come 
up here and you bother them on these issues.
    Ms. Jackson Lee. Thank you, Mr. Chairman. You just gaveled 
me down, but I must say that we have got to make some use out 
of our power on human rights if we are going to carry our 
message of democracy and freedom forward. Thank you, and I 
yield back.
    Chairman Berman. Thank you.
    I think, given the time, I will forgo the third round. I 
did want to pursue this notion of the conditioning of security 
assistance, but some other time, some other place.
    Thank you very much. It has been a very valuable 
contribution you have made to our education on the subject, and 
we are very grateful that you took the time to come here.
    With that, the committee hearing is adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Material submitted for the record by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material submitted for the record by Ms. Jennifer L. Windsor, Executive 
                        Director, Freedom House

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Material submitted for the record by Elisa Massimino, J.D., President 
            and Chief Executive Officer, Human Rights First

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
